<html>
<title> - MS-13, AND COUNTING: GANG ACTIVITY IN NORTHERN VIRGINIA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
        MS-13, AND COUNTING: GANG ACTIVITY IN NORTHERN VIRGINIA

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 14, 2006

                               __________

                           Serial No. 109-174

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

29-710 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 14, 2006....................................     1
Statement of:
    Connolly, Gerry, chairman, Fairfax County Board of 
      Supervisors; David Albo, delegate for the 42nd District, 
      State legislature, Commonwealth of Virginia; Robert A. 
      Bermingham, Jr., coordinator, Fairfax County Gang 
      Prevention Program; Luis Cardona, youth violence prevention 
      coordinator, Department of Health and Human Services, 
      Montgomery County; Elizabeth Guzman, assistant area 
      executive director, Boys & Girls Clubs, Prince William 
      Region; and Norma Juarbe Lopez, executive director, 
      Hispanic Committee of Virginia.............................    13
        Albo, David..............................................    24
        Bermingham, Robert A., Jr................................    29
        Cardona, Luis............................................    51
        Connolly, Gerry..........................................    13
        Guzman, Elizabeth........................................    35
        Lopez, Norma Juarbe......................................    34
    Spero, James, Acting Assistant Special Agent in Charge, 
      Special Agent in Charge Office, Washington, DC, U.S. 
      Immigrations and Customs Enforcement; Diego G. Rodriguez, 
      Assistant Special Agent in Charge, Criminal Division, 
      Washington Field Office, Federal Bureau of Investigations; 
      Marla Decker, deputy attorney general for public safety, 
      Virginia Office of the Attorney General; Chief Touissant 
      Summers, Jr., Chair, Northern Virginia Regional Gang Task 
      Force, city of Herndon Police Department; and Captain 
      Milburne (Bill) Lynn, commander, Violent Crimes Task Force/
      Gang Unit, Prince George's County Police Department........    77
        Decker, Marla............................................   110
        Lynn, Captain Milburne (Bill)............................   105
        Rodriguez, Diego G.......................................    89
        Spero, James.............................................    77
    Summers, Chief Touissant, Jr.................................   101
Letters, statements, etc., submitted for the record by:
    Albo, David, delegate for the 42nd District, State 
      legislature, Commonwealth of Virginia, prepared statement 
      of.........................................................    26
    Bermingham, Robert A., Jr., coordinator, Fairfax County Gang 
      Prevention Program, prepared statement of..................    31
    Cardona, Luis, youth violence prevention coordinator, 
      Department of Health and Human Services, Montgomery County, 
      prepared statement of......................................    55
    Connolly, Gerry, chairman, Fairfax County Board of 
      Supervisors, prepared statement of.........................    17
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Decker, Marla, deputy attorney general for public safety, 
      Virginia Office of the Attorney General, prepared statement 
      of.........................................................   112
    Guzman, Elizabeth, assistant area executive director, Boys & 
      Girls Clubs, Prince William Region, prepared statement of..    38
    Lynn, Captain Milburne (Bill), commander, Violent Crimes Task 
      Force/Gang Unit, Prince George's County Police Department, 
      prepared statement of......................................   107
    Rodriguez, Diego G., Assistant Special Agent in Charge, 
      Criminal Division, Washington Field Office, Federal Bureau 
      of Investigations, prepared statement of...................    92
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........   126
    Spero, James, Acting Assistant Special Agent in Charge, 
      Special Agent in Charge Office, Washington, DC, U.S. 
      Immigrations and Customs Enforcement, prepared statement of    80
    Summers, Chief Touissant, Jr., Chair, Northern Virginia 
      Regional Gang Task Force, city of Herndon Police 
      Department, prepared statement of..........................   103


        MS-13, AND COUNTING: GANG ACTIVITY IN NORTHERN VIRGINIA

                              ----------                              


                         FRIDAY, JULY 14, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                       Fairfax, VA.
    The committee met, pursuant to notice, at 10:07 a.m., in 
room 305, Fairfax City Hall, Fairfax, VA, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis, Van Hollen, 
Ruppersberger, and Norton.
    Also present: Representatives Wolf and Moran.
    Staff present: David Marin, staff director; Jennifer 
Safavian, chief counsel for oversight and investigations; 
Brooke Bennett, counsel; Rob White, communications director; 
Andrea LeBlanc, deputy director of communications; Teresa 
Austin, chief clerk; Mindi Walker, professional staff member; 
Bill Womack, legislative director; Darcie Brickner, legislative 
assistant; and Howie Denis, counsel.
    Chairman Tom Davis. The hearing will come to order.
    I would ask unanimous consent that the distinguished 
gentlemen from Virginia, Mr. Wolf and Mr. Moran, be permitted 
to participate in the hearing today. Without objection, so 
ordered.
    I want to thank everybody for coming out to Fairfax City to 
today's hearing. Mr. Van Hollen is in traffic, but he's going 
to get here--in traffic in the county, Jerry, but I'm not 
sure--we're going to be examining the activity of gangs in 
northern Virginia and the D.C. Region, including the notorious 
MS-13. We'll also be looking at the State, local, and Federal 
responses to the problem.
    It's very easy for us to think of gangs as something 
affecting big cities like Los Angeles or New York, but more and 
more gangs are moving into smaller cities and suburban 
communities, terrorizing residents and stretching enforcement 
and prevention resources to their limits. For example, MS-13, 
one of the Nation's most violent and prevalent gangs, has a 
presence in 33 States, with membership that could exceed 20,000 
people in the United States. And as we're all well aware, MS-13 
has an especially active presence here in northern Virginia and 
suburban Maryland.
    But it's not just MS-13. In Fairfax County, one of the 
Nation's most prosperous and well-educated communities, law 
enforcement officials say there is a gang presence in every 
high school. Gangs continue to threaten our suburban 
communities in Dale City, Manassas, Herndon, and even in the 
bucolic Shenandoah Valley. If there's a strong presence of MS-
13 in such a peaceful area, can we say for sure where it is 
not?
    We in northern Virginia have been fortunate in that leaders 
at all levels are proactively addressing the gang problem. 
Foremost among these is my colleague and good friend, 
Congressman Frank Wolf. Representative Wolf has spearheaded the 
fight against gangs in northern Virginia from a policy 
standpoint and, more importantly, from an appropriations 
standpoint, securing nearly $12 million in Federal funding. 
When his area came under attack by gangs, Congressman Wolf 
recognized that a traditional law enforcement organization 
could not effectively address gang issues, rather, coordination 
between myriad Federal, State and local agencies would be 
vital. This was accomplished in the form of the Northern 
Virginia Regional Gang Task Force.
    We'll hear today that the Task Force has been successful in 
fighting the gang problem in our neighborhoods. But let's be 
clear, without Congressman Wolf, the Task Force would not 
exist. The Task Force has made tremendous steps in gang 
suppression across northern Virginia. Congressman Wolf is to be 
commended for his dedication in fighting MS-13 and gangs in 
northern Virginia, and I just appreciate his being here today 
to lend his dedication and knowledge of this issue to this 
panel.
    At the local level, Supervisor Sharon Bulova took the 
initiative by conducting a community dialog on gang activity 
and revitalization needs. Throughout the spring of 2004, over 
300 concerned citizens and activists took part in a series of 
meetings to examine gang-related issues and come up with 
recommendations to stem the problem. One such recommendation 
was to revitalize Ossian Park, located adjacent to Annandale 
High School.
    I am happy to announce that working with Supervisor Bulova, 
I was able to obtain $250,000 in the fiscal year 2007 Treasury, 
Transportation, Housing and Urban Development Appropriations 
bill that recently passed the House; it still needs to move 
through the Senate and conference. These funds will help reduce 
gang activity at the park and make it an anchor for community 
events.
    We're well served by individuals such as these, but the 
gang issue is something that my colleagues and I, as 
Representatives from northern Virginia, suburban Maryland and 
Washington, DC, must all turn our attention to. Congressman 
Wolf and I last year went to El Salvador. Refugees from that 
country's civil war in the 1980's founded MS-13 and, more 
recently, Salvadoran immigrants continue to have a large 
presence in MS-13 and other gangs. In order to understand the 
problem here in this region, we need to understand the 
challenge at its source.
    The good news is that we are making progress in the fight 
against gangs. The Task Force, with its unique multi-
jurisdictional and multi-disciplinary approach, is able to 
cross county lines and fight gangs with efficiency and 
effectiveness.
    The Task Force has also seen a reduction in gang violence 
in the region. This system is working, and the partnership with 
Federal agencies, including U.S. Immigration and Customs 
Enforcement, the FBI, ATF, Customs and Border Patrol, U.S. 
Marshals Service, Department of Justice, and the State 
Department, is working. Congress' faith in the system is 
evident in the continued moneys dedicated to fighting gangs on 
a local, national and international level.
    I represent northern Virginia, but I'm also a resident, a 
father, a neighbor and a community member. What happens in our 
local parks, in our schools, and on our streets impacts my 
constituents and me personally and my family.
    The D.C. Region is a dynamic community, with people of all 
nationalities and ethnicities who are proud to call it their 
home. That's one of our great strengths, but it also presents 
many challenges, and the introduction of gang violence is one 
of those challenges we have to rise to meet. We cannot and will 
not surrender our streets to violence of turf and retribution, 
a cycle of violence that too often claims not only the lives of 
those engaged in this warfare, but the lives of innocent 
victims as well.
    Like all of us, I'm tired of seeing headlines about Fairfax 
youths being attacked by machetes, or a 17-year-old Herndon 
youth being shot to death by MS-13 gunmen on bicycles, or a 22-
year-old Reston man being beaten to death in a park by MS-13 
members, or, as most recently, three Prince George's County 
young men murdered. Each life wasted to gang activity is one 
too many.
    We as Members of Congress should continue to work to find 
solutions to the growing gang crisis in not only our own 
districts, but in districts across the Nation as well. And this 
is why we call important hearings like this one, to hear about 
the successes of our law enforcement and prevention communities 
and how we can continue to assist them best.
    The enforcement and prevention communities must work hand 
in hand to successfully fight gangs, and today we're fortunate 
to be hearing from representatives from both not only northern 
Virginia, but Maryland as well.
    I'm also pleased we'll be hearing from two local officials 
who have worked on this issue at both the State and local 
areas. Gerry Connolly, who is the chairman of Fairfax Board of 
Supervisors, will inform us of Fairfax County's efforts in 
combating this problem. Delegate Dave Albo, who is chairman of 
the Courts of Justice Committee in the Virginia House of 
Delegates, will discuss innovative tools that enable State 
prosecutors and law enforcement personnel to protect our 
communities.
    I want to thank all of our witnesses for being here today. 
And finally, I want to thank the city of Fairfax for so 
generously making this facility available to us.
    [The prepared statement of Chairman Tom Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 29710.001
    
    [GRAPHIC] [TIFF OMITTED] 29710.002
    
    [GRAPHIC] [TIFF OMITTED] 29710.003
    
    Chairman Tom Davis. Mr. Van Hollen.
    Mr. Van Hollen. Well, thank you, Mr. Chairman. Let me begin 
by thanking Congressman Tom Davis for convening this hearing on 
a very important issue, which obviously impacts the people of 
Fairfax County, northern Virginia, Washington, DC, and 
Montgomery County, Prince George's County and other parts of 
Maryland. It really is a regional issue, a national issue, and 
when you're talking about gangs like MS-13 and some others, 
it's gangs with international reach. And we need to approach 
these on a regional basis and with our support from our 
national partners as well.
    And I just want to thank our partners on the Virginia side 
of the river for working in collaborative fashion with those of 
us in Maryland.
    I'm here with my colleague, Mr. Ruppersberger, from the 
Baltimore area, and I think it's been a successful model but we 
need to keep at it. Mr. Davis just mentioned a number of the 
recent killings in Adelphi, MD. It's part of my congressional 
district. We need to make sure that we work with dispatch, that 
we take nothing for granted. Some progress has been made, but 
we need to work even harder.
    And in that connection, I do want to thank Congressman 
Frank Wolf for his leadership on this issue. He was the mover 
and shaker in terms of the funds we were able to put together. 
Last year for suburban Maryland, the portion of Maryland 
outside of Washington, DC, Prince George's County, Montgomery 
County, we've put together--and I'm pleased to have--I want to 
thank you, Mr. Chairman, for inviting witnesses from Maryland, 
including Mr. Cardona who is here and others. We have put 
together a joint Montgomery County-Prince George's County Anti-
gang Task Force that I think has been successful at trying to 
bring those two jurisdictions together to address this issue.
    They have a three-part strategy, which is a strategy that I 
know is also being worked on over here. Obviously a law 
enforcement component, a strong law enforcement component, and 
suppression. A second intervention, trying to make sure that 
people who join the gang have an opportunity to get out of a 
gang. It's a lot easier to get in than to get out, and we want 
to make sure that we have the support systems in place to help 
those who want to get out.
    And finally, and maybe most importantly, is the prevention 
piece, because every person we can prevent from joining a gang 
in the first place is a person that we don't have to address 
even larger problems and needs later on.
    So I look forward to this hearing and learning from one 
another on both sides of the Potomac River, because I think, as 
I said earlier, there is obviously a common denominator running 
through the gang issue, which makes it a regional problem.
    I also want to thank you, we have Captain Lynn from the 
Prince George's County Police Department representing the 
Chief. He's here and I think will be saying a few words a 
little later on.
    So let me again thank you for bringing us together, and I 
look forward to continuing to do this on both sides of the 
river and monitoring this.
    And again, I want to thank Congressman Moran as well. He 
serves on the Appropriations Committee. Without his support we 
wouldn't be able to put this together.
    So I thank our partners from Virginia, and I look forward 
to working with you again this year so we can help provide the 
resources necessary to help our local law enforcement and our 
local social service agencies address this very important 
issue.
    Chairman Tom Davis. Thank you, Mr. Van Hollen.
    Mr. Wolf, thank you for your leadership on this, and thanks 
for being here today.
    Mr. Wolf. Thank you very much, Tom.
    I want to, at the outset, say that the effort from the 
Virginia side has been a total cooperative effort between Tom 
Davis, Jim Moran and myself. Everything that we have done on 
the funding and on all the different programs we have done 
together. And then with your colleagues, with Chris and Dutch 
it's been the same way, approaching this as a regional problem, 
not just in Arlington or just in the Shenandoah Valley. So I 
want to thank Tom and Jim for the cooperation, I mean, the 
three of us working together, and also across the river with 
our Maryland people.
    I also want to thank the Federal, State and local people. 
This is a model for the Nation, because what it has done is not 
just suppression, but it's suppression, law enforcement, but 
also education. You're going to hear about the educational 
aspects and intervention whereby we go in and begin to pull 
people out of the gangs, but we also prevent people or do 
everything we can to keep people from coming in.
    Also last, I want to thank the law enforcement people. At 
the Federal level, FBI, DEA, ATF, Marshals Service have done a 
tremendous job. The State police and the local police, our 
policemen and women deserve a debt of gratitude from Arlington, 
Alexandria, Fairfax, Loudoun, Prince William, city of Fairfax, 
Manassas, Manassas Park all the way out into the Shenandoah 
Valley. They have been quiet in their efforts but very, very 
effective.
    I also want to thank the GRIT teams and the educational 
parts. We owe the law enforcement in this region a tremendous 
debt of gratitude.
    Last, Tom, I appreciate your leadership. And I think 
working together, Republicans and Democrats really coming 
together, and the three in northern Virginia making a 
difference and also up in Maryland can really make a 
difference. No one in this region should live in fear from 
gangs. And we are committed to making sure there is the Federal 
resources, the Federal dollars to deal with this issue so 
everyone, whether you've been in this region for 50 years or 50 
days or 50 minutes, no one should live in fear in this region, 
and we are committed to making sure that we eradicate, we 
eliminate, we eradicate not just get control, we eradicate the 
gang violence in this region. So Tom, thanks for your 
leadership and your effort.
    Chairman Tom Davis. Well, thank you, Frank.
    Mr. Ruppersberger, you came the furthest this morning and 
were the first to arrive, so traffic couldn't have been that 
bad.
    Mr. Ruppersberger. Thank you very much.
    Well, thank you very much, Mr. Chairman, you pulling us all 
together. This is a great team here. Frank Wolf, Congressman 
Wolf, you've done a great job and I know your efforts have 
really made a difference. And Jim Moran, you three working as a 
team, and Chris Van Hollen, it's good to be here as a region, 
Virginia, Washington and Baltimore.
    The Baltimore-Washington regions have a lot of things in 
common, but one thing we do differ is that you all root for the 
Redskins and the Nationals, we root for the Ravens and the 
Orioles. I just want to make that clear.
    Now, in my district and throughout the State we are 
experiencing some of the same problems you are in Virginia. MS-
13 is a sophisticated crime network that is not contained by 
State or international borders. Right now, some attribute the 
rise in the gang activity in Maryland to the success of the 
Regional Gang Task Force here in Virginia. And instead of 
reducing gang activity, we're just spreading it around. And if 
this is in fact the case, then we all need to work together 
across State lines to combat this serious problem. We can't 
just brush it under the rug in another jurisdiction, we need to 
work as a regional team across the lines to solve the problem.
    Now the rise of MS-13 exposes several challenges we face as 
a region and as a Nation. The fluidity of borders, insufficient 
immigration, enforcement tools, a lack of social programs that 
promote youth development, the persistence of poverty and a 
limited regional approach to law enforcement create the perfect 
storm for violent gangs to survive, and MS-13 is clearly an 
example. Now we need to strengthen our regional approach to law 
enforcement by building effective programs already underway and 
making sure we give law enforcement the resources they need.
    Now many years ago I was an investigative prosecutor in 
Baltimore County, MD and I dealt with some gang issues, but not 
what it is here today. The gang problem is getting more serious 
and deadly, and we must fight proliferation of gangs on a 
multiple of fronts.
    It is a fact that a lot of gang members have a poor home 
life, and that these young people who are most susceptible to 
being recruited in the gangs are ones that do not have a strong 
family life. The gang becomes their family and support.
    Now we need reasonable enforcement efforts and we need 
effective prevention and intervention programs. To address this 
problem, we need to ensure that prevention and intervention 
programs have the resources they need to reach the kids today, 
and I know that our two members here on appropriations have 
done a lot in that regard. After school programs, such as 
Police Athletic Leagues and others, seek to involve parents, 
schools and local community groups to get rid of in our 
neighborhoods of the underlying conditions where gang activity 
flourishes. By teaching youth to respect themselves and their 
community through smart decisions and getting involved in a 
positive way, we can help put them on a path to successful 
legal future.
    Now we need to reach these young people starting in 
elementary school and continuing through junior high. Recent 
trends in my congressional district, in the Baltimore region, 
indicate that recruitment is occurring in junior high and the 
high school level, and if prevention is to work we need to get 
to these kids now.
    My district is also diverse when it comes to gang 
membership. I represent Baltimore City, Harford County, 
Baltimore County, and Anne Arundel County. We not only have MS-
13 growing, but we also have ``CRIPS'' and ``BLOODS,'' so this 
is becoming a serious issue.
    We need to stay focused, and our jurisdictions across the 
Washington-Baltimore region must work together. Cooperation is 
key if we're going to save our young people, stop the violence 
and the crime associated with gangs. And I want to thank you 
again, Mr. Chairman, and I yield back.
    Chairman Tom Davis. Thank you very much.
    Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman. And thank you very much 
for holding this hearing. And although it's of a much lesser 
importance, nice job with getting the FCC to advance our 
telecast of Nationals' games--good victory there yesterday. 
Since Dutch brought it up, I thought I would----
    Mr. Ruppersberger. Well, we were working together on that 
one, too.
    Mr. Moran. Yes, we were. Tom took the lead.
    And of course as all of my colleagues up here have said, 
Chris and Dutch--and I know Eleanor will reiterate it--Frank 
Wolf has been our leader on this issue. And you can tell from 
the passion that he brings to the issue how much he cares about 
it, and rightfully so.
    We have been devoting resources over the years, millions of 
dollars, virtually all of it targeted for regional efforts to 
reduce gang violence, as well as deal with a lot of the drug 
activity in the region, which is integrally connected as well.
    But those efforts, getting money and bringing the issue to 
the public's attention, is kind of a marginal role. And I know 
with all--even with all the leadership that Frank has brought, 
the real efforts that count are down and at the neighborhood 
level, as Frank says, with the police officers working within 
the community, the social workers, the people who work in our 
recreation centers, our education personnel particularly. Their 
day in and day out efforts are in fact making a real 
difference.
    Now, I think our greatest impediment is the fact that too 
much of our efforts have really been imbalanced. Too many 
folks, at least at the legislative level, are the first ones 
that want to clamp down tough on gang members after they've 
committed crimes, after there have been victims, after there 
has been no alternative, really, but to put gang members into 
situations where they're going to become even more hardened, 
whether it's incarceration, deporting them back to a Central 
American country or wherever.
    Many of us may have seen that television show that was 
terrific the other night on a gang and the violence that is 
integral to a gang's formation and membership. We've got to do 
much more in a smarter way, and we've got, as many of my 
colleagues have said, focus more on prevention so that those 
lives can be saved and we can reduce the number of victims of 
gang violence.
    You know, almost every wave of immigrants have seen their 
children engage in gangs. We've seen that movie, the Gangs of 
New York, the Irish gangs, Italian gangs. West Side Story is 
one of the most popular movies, but that was all about the fact 
that the gangs were a dominant part of urban life, and that's 
part of human nature. But while those--we had little that we 
could do about those gangs a century ago, we have a lot we can 
do today. We know what intervention strategies work. We know 
that putting money into day care, into Head Start, into after 
school programs, into mentoring, into a number of the other 
efforts that northern Virginia and the Washington suburbs, 
Maryland and Montgomery County, Prince George's and Baltimore 
have engaged in. They're taking the lead, they're showing 
tremendous results, but it does take resources. And one of 
the--the only note of dissidence, if you will, on this issue 
that troubles me is that some of the folks who are the first 
ones who want to save money by cutting it out of day care and 
elementary education programs are the first ones who want to 
imprison and get tough with gang members after people have been 
victimized. We need to do both. It needs to be balanced, and it 
really needs to start in the early years. Every child is 
precious, every life can be redeemed, and we need to go about 
using the experience that we have to start saving some of these 
lives before it's too late.
    Thank you very much, Mr. Chairman.
    Chairman Tom Davis. Mr. Moran, thank you.
    And Ms. Norton, welcome to Fairfax, thanks for being here.
    Ms. Norton. Thank you very much, Mr. Chairman. I need more 
than a road map when it comes to coming to the suburbs. It all 
seems like another country. But the fact is that this----
    Mr. Connolly. Welcome to our world, Mrs. Norton.
    Ms. Norton. I'm trying my best. But the fact is that if the 
emergence of MS-13 and gangs in large numbers bringing with 
them crime to the suburbs doesn't tell us that we are one 
region, I don't know what will. Therefore, Mr. Chairman, I am 
very pleased that you had this hearing and invited those of us 
from other regions, other jurisdictions, even though you call 
it a hearing on MS-13 and gang activity in northern Virginia. 
But crime is contagious, respects no borders, and it goes from 
northern Virginia to wherever it finds fertile ground. We have 
not had precisely the same problem you have had here in 
northern Virginia, but we have had enough so that we now have 
our own gang intervention partnership unit working both to deal 
with the violence and to try to partner with activities in the 
District that can deal with young people with these gang 
members.
    We estimate that in the District we have 500 to 600 gang 
members, mostly around the Adams Morgan area. We have 
identified about 75 active MS-13 members. So we know already 
that they are everywhere.
    I'm sure that people in your communities who have been 
unused to the kind of crime these MS-13 members commit have 
been shocked by what the outbreak of these gangs means. In a 
real sense, what I don't understand is how these gangs 
regionalize themselves, it's almost like drugs regionalizing 
itself; you find meth some places, crack and heroin other 
places, and all of it's equally harmful.
    So I've come because I think that your experience in 
northern Virginia has much to teach us in the District of 
Columbia. We know about big time crime, street crime, but we 
have had less of the gang violence that you now have in very 
substantial amounts.
    Indeed, I see Luis Cardona here, and see that Luis--who 
used to be on my staff, I mean, there is the word ``Montgomery 
County'' behind his name. Lord, Luis. This is a young man who 
was on my staff when I first came here. I see he's a Youth 
Violence Prevention Coordinator. He is an extraordinary young 
man because while he was on my staff doing all kinds of 
casework--he was out in the community doing I'm sure what they 
pay him to do now. See, I was paying him as a caseworker and to 
have contacts with my Hispanic community. And all of his 
volunteer time, when he got out of work, was spent doing 
exactly this kind of work.
    So I'm pleased to see you, Luis, and we need you back in 
Washington. And I want to thank you, Mr. Chairman. And I want 
to thank my good friend, Frank Wolf, who started the entire 
region on the road to understanding this, put his money where 
his mouth was and now has the attention of all of us in the 
Congress, not only from this region. I also want to thank Frank 
because, as you may have read, he's working with me as well on 
the way in which there have been crime spikes in the District 
of Columbia recently.
    Thank you again, Mr. Chairman.
    Mr. Van Hollen. If I could just thank you, my colleague, 
Ms. Norton, for doing such a good job with Mr. Cardona. And I 
just have to say he is doing a terrific job in Montgomery 
County and in cooperating with Prince George's County on this 
issue. And we hate to lose him again, he is doing just a 
terrific job, and I look forward to hearing from him.
    Chairman Tom Davis. Thank you.
    Members will have 7 days to submit opening statements for 
the record.
    We're going to recognize our first panel. We have the 
Honorable Gerry Connolly, the chairman of the Fairfax County 
Board of Supervisors; then Davis Albo, the Delegate for the 
42nd District in the House of Delegates and chairman of the 
State Courts of Justice Committee. Mr. Robert Bermingham, the 
coordinator of Fairfax County Gang Prevention Program. Mr. Luis 
Cardona, youth violence prevention coordinator, Department of 
Health and Human Services, Montgomery County. Mrs. Elizabeth 
Guzman, executive director of the Boys and Girls Club for the 
Prince William Region, and Mrs. Norma Juarbe Lopez, the 
executive director of the Hispanic Committee of Virginia.
    It's our policy we swear all witnesses in before you 
testify, so if you would just rise, please, and raise your 
right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. We're going to start with Chairman 
Connolly, go to Mr. Albo, Mr. Bermingham, and then we'll start, 
Mrs. Lopez, with you and move straight down. Try to keep it to 
5 minutes. You have a light in front of you; it will turn 
orange after 4, red after 5.
    Gerry, let me just say welcome to the city of Fairfax, but 
thank you, also. You head a task force, we had all these task 
forces, we grouped them all together. And we appreciate your 
leadership as well and your taking the time to be with us 
today. Thank you.

STATEMENTS OF GERRY CONNOLLY, CHAIRMAN, FAIRFAX COUNTY BOARD OF 
SUPERVISORS; DAVID ALBO, DELEGATE FOR THE 42ND DISTRICT, STATE 
 LEGISLATURE, COMMONWEALTH OF VIRGINIA; ROBERT A. BERMINGHAM, 
JR., COORDINATOR, FAIRFAX COUNTY GANG PREVENTION PROGRAM; LUIS 
 CARDONA, YOUTH VIOLENCE PREVENTION COORDINATOR, DEPARTMENT OF 
HEALTH AND HUMAN SERVICES, MONTGOMERY COUNTY; ELIZABETH GUZMAN, 
 ASSISTANT AREA EXECUTIVE DIRECTOR, BOYS & GIRLS CLUBS, PRINCE 
  WILLIAM REGION; AND NORMA JUARBE LOPEZ, EXECUTIVE DIRECTOR, 
                 HISPANIC COMMITTEE OF VIRGINIA

                  STATEMENT OF GERRY CONNOLLY

    Mr. Connolly. Thank you, Mr. Chairman, and members of the 
committee, Mr. Moran, Mr. Wolf. Thank you, Mr. Chairman, for 
your leadership in holding today's important hearings.
    I want to speak to you today about how Fairfax County is 
working to protect our most precious resource, our children, 
from the threat of gangs.
    Our commitment is that every kid is worth fighting for. Our 
approach, a true working partnership between the county 
government, the business community, the nonprofit faith and 
civic communities, is truly unique and is a testament to a 
simple idea that all of us have a role in protecting our 
children's future and the safety of our citizens.
    It was with that simple but powerful idea that the Board of 
Supervisors embarked on this project with the adoption of our 
Gang Initiative in January 26, 2004.
    In my inaugural speech in late 2003 I laid out six 
priorities for our community that I thought were of particular 
importance, chief among these was the need to tackle the 
growing threat of gangs.
    Education and public safety are the two priorities of any 
local government. Over the years, Fairfax County has made 
strategic investments in public safety, and I'm proud to be 
able to say that with more than 1 million residents, Fairfax 
County is the safest jurisdiction of its size in the United 
States, and those investments are paying off. Last year our 
crime rate declined by another 3.2 percent in Fairfax County, 
dropping to a 32-year low. One of the few clouds on that 
otherwise bright horizon, however, is the rise in gang 
activity. Gangs challenge the community's fundamental mission 
to keep every neighborhood and community safe and to create a 
quality of life that allows our children to thrive and reach 
their full potential. The threat of gangs has to be combated in 
a coordinated way.
    There are an estimated 1,500 gang members in Fairfax 
County. During 2005, police statistics indicate that there were 
approximately 1,200 gang-related crimes within our county. 
Police estimate that over the last 5 years they've identified 
nearly 100 gangs in Fairfax County, most of them, however, 
small and short-lived. We estimate that the gang members in 
Fairfax County are responsible for less than 10 percent of 
violent crimes, such as homicide, rape, robbery, aggravated 
assault, burglary, larceny and motorcycle theft, and virtually 
all of this violent gang activity is committed by one gang 
member upon another. Approximately 40 percent of gang-related 
crimes in the county were for the destruction of private 
property, such as graffiti. The most active gangs in the county 
include Mara Salvatrucha, MS-13, the county's largest group, 
``South Side Locos,'' ``CRIPS,'' ``BLOODS,'' ``Folk Nation,'' 
``People Nation,'' and ``18th Street.'' The gang problem in our 
county is real, but as a result of proactive actions taken by 
the Board, our police force and our community partners, the 
problem of gangs is not at an epidemic level in our county as 
it is in some other comparable jurisdictions.
    That being said, gangs pose a significant threat to public 
safety, and we take the threat very seriously.
    As I've said, the solution to the threat of gangs does not 
lie only with law enforcement, as Mr. Moran indicated. The 
coordinated prevention strategy we've undertaken in these last 
2 years is a cross-agency, communitywide initiative to 
strengthen and improve collaboration between all county 
departments, the schools, the private sector, faith-based 
groups and the community at large. Together we've undertaken an 
anti-gang effort based on prevention, intervention and 
suppression strategies.
    As you are aware, Mr. Chairman, Fairfax County has long 
been involved in gang prevention and related activities, 
including the establishment of a gang investigative unit of our 
police department when in fact you were chairman, Mr. Davis, in 
1994. It has a well-deserved reputation for providing numerous 
youth recreational and educational opportunities that have 
deterred a vast majority of our young people from ever joining 
gangs, an investment that will pay dividends in public safety 
and quality of life into the future.
    But there were missing elements in the county's efforts 
when I brought my gang initiative to the Board 2 years ago, 
including identification and coordination of what we're already 
doing. Some of the things we put in place were recognizable as 
anti-gang programs, such as our police unit. Those heading 
other programs, such as after school care and youth job 
training, librarians even and park authority staff didn't think 
of themselves as part of the anti-gang effort, but they are. In 
some places, critical services were falling short of the need, 
such as after school programs for middle school students, our 
highest risk population, during the highest risk hours of the 
day. Most notably, those in charge of these resources had no 
way of talking to each other or coordinating their efforts of 
leveraging the time and money they already were investing.
    It was with that in mind on July 12, 2004 that we brought 
before the Board of Supervisors an Anti-Gang Initiative and 
asked that we launch the effort with a gang summit. The summit 
brought together all the stakeholders in the community to 
formulate a coordinated plan to combat the influence of gangs 
on our children and in our community. As a result, the Fairfax 
County Board directed the county executive to develop and 
present a proposal for a cross-agency effort to enhance the 
coordination of activities regarding gangs and to involve the 
Fairfax County Public School system as well as community-based 
organizations such as the Partnership for Youth. The Board also 
directed the inclusion of a community coalition connected to 
high schools and their feeder schools, as well as 
representatives from regional shopping malls or centers.
    We also established a Coordinating Council on Gang 
Prevention chaired by the county executive and led by a 
steering committee. And we hired our first gang prevention 
coordinator, Mr. Bermingham, from whom you will hear later.
    The membership of the Coordinating Council is based on the 
premise that gang prevention, intervention and suppression must 
be a public, private and community-based effort. The Council is 
responsible for coordinating the county's preventative and 
community education efforts and reports directly to the Board. 
It seeks to educate and engage members of the community, 
including parents and other community leaders in the community. 
The Council is pursuing five strategies which are taken from 
the U.S. Department of Justice of Juvenile Justice and 
Delinquency Prevention Comprehensive Gang Model; community 
mobilization, opportunities provision, social intervention, 
suppression, and organizational change and development.
    With respect to suppression, the police department in 
Fairfax County continues to take a proactive approach to gang 
suppression and prevention. The department has conducted seven 
coordinated gang operations in the past year. These operations 
bring together police resources from the involved district 
station, the Gang Investigative Unit, Operations Support 
Bureau, and outside agencies such as Juvenile Adult Probation 
and Parole, and the public schools and the Gang Prevention 
coordinator.
    The police department's Youth Services Division in the 
summer of 2005 assisted in providing information to the 
Virginia State Legislature which made the brandishing of a 
machete a criminal offense. Over the past 4 years there's been 
100 percent success rate in identifying the suspects in gang-
related homicides in Fairfax County. While highly publicized, 
they are, thank God, few in number. The homicide rate remains 
very low, and one of the two most recent cases is being 
prosecuted utilizing Federal RICO statutes. We have seen a 
reduction across the board in the reported violent gang-related 
crime in the first quarter of 2006 compared with the first 
quarter in 2005.
    We've done a lot of things in prevention, Mr. Chairman, as 
well. And the biggest single thing we did, when I became 
chairman, we discovered that in our 26 middle schools--which is 
the age group that is the most vulnerable--we had only three 
after school middle school programs, and none of them were 5 
days a week. I am pleased to tell you that with the infusion of 
resources and with the help of our Federal partners--you, Mr. 
Moran, Mr. Wolf in particular--we're going to have after school 
programs 5 days a week in every middle school in Fairfax 
County, all 26, targeted particularly on gang prevention.
    We've also partnered with Cox Communications in the $3 
million effort that they're funding in collaboration with the 
county that will lead to the creation of six new Boys and Girls 
Clubs specifically focused on targeted, at-risk youth for gang 
prevention strategically located throughout the county.
    I'll be glad to answer questions, but I just want to 
summarize, Mr. Chairman, by saying I really believe and I know 
our county is committed to the proposition that every kid is 
worth fighting for, and we're not going to rest until we 
achieve the goal Mr. Wolf has set for everybody, the full 
eradication of gang violence in our community.
    Thank you so much for having me.
    [The prepared statement of Mr. Connolly follows:]
    [GRAPHIC] [TIFF OMITTED] 29710.004
    
    [GRAPHIC] [TIFF OMITTED] 29710.005
    
    [GRAPHIC] [TIFF OMITTED] 29710.006
    
    [GRAPHIC] [TIFF OMITTED] 29710.007
    
    [GRAPHIC] [TIFF OMITTED] 29710.008
    
    [GRAPHIC] [TIFF OMITTED] 29710.009
    
    [GRAPHIC] [TIFF OMITTED] 29710.010
    
    Chairman Tom Davis. Thank you very much, and your entire 
statement is in the record. We appreciate it.
    Delegate Albo, thanks for being with us.

                    STATEMENT OF DAVID ALBO

    Mr. Albo. Thank you, Congressman.
    For those of you who are not familiar with me, I'm chairman 
of the Judiciary Committee, we call it Courts of Justice 
Committee in Virginia.
    I've practiced law for 18 years. I've done everything from 
serving as a public defender to a district court prosecutor, 
and so--in fact, I've been working a lot on the gang bills we 
passed in the Virginia legislature over the years.
    Let me tell you basically, you will hear from the Attorney 
General's Office on what Virginia has done. We met for 2 years 
and looked at every single State's laws, called those States, 
asked them which laws of theirs are working, which ones are 
not, and we basically took the greatest hits. So if you want to 
have a place to start, later on our Attorney General's Office 
will give you a list. You may want to look at the Federal 
implementation of that legislation.
    I want to talk a little bit about the nuts and bolts of 
prosecuting these criminals because that's really the hard 
part.
    To convict a person of a criminal street gang offense you 
actually have to prove that the group is a gang. And I know 
that sounds like it might be easy because everybody knows MS-13 
is a gang, but it's more difficult than you may think because 
you have to prove beyond a reasonable doubt every element of 
the offense.
    The CRIPS and the BLOODS have like 100 subgroups. So if a 
person is in a gang, the prosecutor has to prove that they are 
actually in the same subgroup, and any changes in leadership, 
any changes in clothing, any slight deviations from signs will 
all ruin a prosecution.
    So what we've done in Virginia is--I'm basically giving you 
an idea of how our law works--it's very difficult to even pass 
a law that makes it illegal to be in a gang because the first 
amendment says that everybody has a right to freedom of 
association. You can hang out as an American with whomever you 
want to hang out with under the U.S. Constitution. You can't, 
however, hang out with a group organized for a criminal 
enterprise, such as a terrorist cell or the mob. So what we do 
is we define gangs as groups of three or more people who are 
organized to accomplish certain crimes. We call these certain 
crimes predicate criminal acts, and then we make a list. Now of 
course we didn't want to make it a crime and thus have 
horrendous punishment for somebody who's hanging out with a 
bunch of people who are organized for the purposes of 
trespassing. So what we've done is we've taken those serious 
crimes and we list those. Then we go out to the street and talk 
to prosecutors and police officers and say what's missing? Have 
you seen any gangs that are doing certain crimes that aren't 
listed? For example, this year we found out that a bunch of 
groups are organized for the purposes of engaging in 
prostitution, so this year we added prostitution to our list.
    So now you know how we have our law structured. A gang is a 
group of three or more people organized to commit a certain 
criminal act.
    So now you're in court and you're a prosecutor. How are you 
going to prove that the group that this guy is a member of is 
organized for committing these certain acts? Well, a law 
enforcement unit like Fairfax--and I have to congratulate Gerry 
Connolly--and I hope he will pass on this compliment to his 
police force because they are second to none, they're very 
advanced, they've been in the business for a long time and 
they're very, very brave. But if you have a jurisdiction in 
Virginia that doesn't have the kind of resources, it's nearly 
impossible.
    We started looking at ways for us to be able to prove that 
certain organizations are engaging in these criminal acts, and 
then in the Crime Commission someone had a great idea. You 
know, there actually is a list out there of people who admit 
they're in gangs and they tell you what crimes they commit. I 
couldn't believe at first when I first heard there is this list 
out there but there is. Do you know what that is? That's in the 
prisons, because when a guy gets busted and he goes to prison, 
the first thing he tells the warden is don't put me in that 
cell block because I'm a CRIP and they're BLOODS.
    So what we started this year to do is create a list, and 
that list will be a list of self-admitted gang members who will 
tell, of course, I'm a member of the CRIPS, and then we're 
going to be able to see what crimes he commits. We create that 
list, and then we're going to try to use that list in court 
under the exception to hearsay rules such as business records 
exceptions or admissions against self-interest.
    Now, what would be great, and another purpose of this is to 
kind of coordinate our efforts in the Federal, State and local 
levels, we'll keep an eye on this. If this thing is working, we 
might want to try doing it in the Federal level because we have 
a lot of gang members in prison in the Federal level. The 
bigger the list, the more resources we have, the easier it is 
for our people to prosecute.
    In closing, what I want to tell you is that I probably 
passed about 10, 12 laws in Virginia already. The best ones 
come to us from street police and prosecutors. The best place 
to go for information is to talk to the people on the street. 
That's where you find out that we're having problems proving an 
organization is a crime. We find out what these organizations 
are doing. And that's how I think that Virginia's laws have 
developed into some of the most successful in the country.
    [The prepared statement of Mr. Albo follows:]
    [GRAPHIC] [TIFF OMITTED] 29710.011
    
    [GRAPHIC] [TIFF OMITTED] 29710.012
    
    [GRAPHIC] [TIFF OMITTED] 29710.013
    
    Chairman Tom Davis. Delegate Albo, thank you very much.
    Mr. Bermingham, thank you for your work and thank you for 
being here.

             STATEMENT OF ROBERT A. BERMINGHAM, JR.

    Mr. Bermingham. Thank you, sir. And good morning to you and 
the other committee members.
    My name is Bob Bermingham and I'm the Gang Prevention 
Coordinator here in Fairfax County, and I want to thank you for 
giving me this opportunity today to talk briefly about how 
Fairfax County is responding to this issue; more specifically, 
what I'm doing a little bit day-to-day, and how we're working 
on a regional effort, given Congressman Wolf's direction, and 
how we are working in northern Virginia together to deal with 
this issue.
    I also want to thank you for bringing this and keeping this 
on the public agenda table. It's easy sometimes for these 
things to slide away, and I'm glad to see that year in and year 
out that we're continuing to talk about this. Just this morning 
I was reading an article that was passed on to me from our 
Chief of Police where the Governor in Alaska is putting 
together a task force because of the amount of gang activity 
they're having in Anchorage. So it certainly is a national 
issue, not just a local issue.
    Chairman Connolly has done an excellent job of outlining 
our response here in Fairfax County, so I'd like to take this 
opportunity to tell you a little bit about what I'm doing 
individually and how I'm working with the northern Virginia 
region on this issue.
    Fairfax County Board of Supervisors established this 
position over a year ago, and I think they had tremendous 
insight when they placed this position in the County 
Executive's Office. I report directly to the county executive, 
which gives me a tremendous amount of leverage when I'm trying 
to bring services within the county level together. It also 
sends a very important message to county staff and to the 
community as to how serious our Board of Supervisors took this 
issue.
    I truly believe if they had hot taken this step, if they 
had not as a board and as leaders within government said this 
is an issue for us, we would still be struggling to bring our 
services together and work together collectively on this issue. 
And the more that leadership such as is sitting in this room 
today talks about the issue and allocates resources to it, the 
more successful we're going to be.
    As a result of putting a spotlight on gangs, gang 
prevention in Fairfax County, we are progressing in the 
coordination of our own internal programs. Our first steps were 
to take a look at what we are doing, the services we are 
providing and how we can bring those together to work 
specifically with the gang issue in Fairfax County. What we do 
is we have a lot of services. What we knew is we were doing a 
lot of good things, but we wanted to make sure that we're doing 
them for everybody, and doing them collectively and not 
individually.
    In short, I am the point person in Fairfax County regarding 
gangs. I've been asked to develop and implement the county's 
strategic plan of how we're going to address this issue, and 
I'm doing that by working with our partners within local 
government and outside, with our nonprofit organizations, our 
faith-based organizations and our community members who bring 
this together. The teams that we have set up in Fairfax County 
include all of those individuals and help us develop those 
plans.
    We are working together and collaborating together on a 
regional basis as well. I hope that the day will come that 
we're able to collaborate with our partners across the river 
and in Maryland, and we'll put away the Red Skin/Raven issue 
and be able to work a little closer together as we can share 
and exchange information. And that's what we're able to do on a 
regional issue. We've taken an issue and we're working together 
to see what works in each one of our situations.
    I've been asked to deal with this from the suppression, 
intervention and prevention side. I am not a law enforcement 
officer. I spent 18 years in the juvenile court, but I am not a 
police officer. But I am fortunate, as Delegate Albo said, to 
be working with the finest police department probably in the 
country, and one of the most sophisticated gang prevention or 
gang units we're working with. I can tell you, if you're a 
Fairfax County resident, you have a great police department 
serving you, and that the criminals, as we've heard from our 
partners in Maryland, may be leaving northern Virginia and 
going elsewhere. And that's because the gangs, and you hear it 
on the street, don't do it in northern Virginia, don't do it in 
Fairfax. That's the word on the street. I think that's 
encouraging for us, but I also agree with Mr. Van Hollen, that 
we need to work collaboratively on these issues as well.
    My job day-to-day, I just want to give you a brief idea of 
what that may be in a week. I could work on a special project 
from the chairman's office, collaborate with an organization 
like Boys and Girls Club and the expansion of their programs, 
work with our own community recreation centers and what they're 
doing. Two days ago I spent about 4 hours in one of our 
residential programs talking to a young man who's getting ready 
to leave that residential program and is afraid, because he's 
afraid for his safety and he's afraid for his family and what 
he's going to do when he gets out and tries to stay away from 
these gangs.
    This Sunday I'll be spending some time at Good Shepherd 
Church in Alexandria sharing and exchanging information with 
community members about what they can do to help their children 
and how they can be a part of this.
    In closing, I want to thank you again for providing this 
opportunity for this very important discussion. Fairfax County 
is committed to gang prevention through a three-pronged 
approach we've discussed.
    We're very fortunate to have leadership in Fairfax County 
that take this seriously. Chairman Connolly frequently asserts 
``seize the mission,'' that's something that he passes down 
through our government. I can tell you that in Fairfax County, 
county government and the community has seized the mission in 
gang prevention.
    Thank you.
    [The prepared statement of Mr. Bermingham follows:]
    [GRAPHIC] [TIFF OMITTED] 29710.014
    
    [GRAPHIC] [TIFF OMITTED] 29710.015
    
    [GRAPHIC] [TIFF OMITTED] 29710.016
    
    Chairman Tom Davis. Thank you. Thank you very much.
    Ms. Lopez and Ms. Guzman and Mr Cardona, you'll be our 
clean-up hitters.

                STATEMENT OF NORMA JUARBE LOPEZ

    Ms. Lopez. Good morning, Mr. Chairman, and other 
distinguished members. My name is Norma Lopez. I'm the 
executive director of the Hispanic Committee of Virginia. It's 
an organization that was established in 1967 to help Latino 
immigrants in northern Virginia integrate into the American 
society. We've been in existence since 1967.
    I'm here to discuss a little bit about the work that we're 
doing, and what I think would be some ideas about what can 
work.
    Thanks to two members of this committee, Representative 
Wolf and Representative Moran, as well as Walter DeJalva from 
Arlington County, the Hispanic community of Virginia has been 
able to receive funding in order to begin a collaborative with 
two other organizations on gang intervention and prevention. 
The two other organizations are Greenbrier Learning Center and 
Barrios Unidos.
    We're doing a few things as a collaborative. One of the 
things that we do is an after school mentoring program at 
Greenbrier Learning Center where we try to prevent kids from 
engaging in gangs and having a place to go after school, 
especially Latino children who are having problems in school 
and also speak a second language.
    The other thing we do is through Barrios Unidos, we're 
going to have a peace summit at George Mason University this 
month, beginning on July 27th, and there we're going to invite 
all sectors of the community, including former gang members and 
law enforcement agency, government representatives to discuss 
what are the issues in the community and northern Virginia 
regarding gang violence. Because we believe that in order to 
have a plan, you need to assess what is the level of the 
problem in your community, and this is one of the purposes of 
the summit.
    The other thing we do is mentoring after school for middle 
school children. And there we try to keep kids in a safe place 
until their parents get out from work. Let's face it, gang 
prevention really begins at home, and it begins with the 
parents, that is No. 1. And many of our Latino parents work in 
low sector skilled jobs, and they have erratic schedules, and 
their children need a place to go before their parents get in 
from work.
    The other thing that we're doing is making presentations 
throughout schools, high schools, middle schools, elementary 
schools throughout northern Virginia in trying to get youth not 
to engage in gangs.
    What works? We know the research is being done by the 
Department of Justice. There is a lot of issues with what works 
or what doesn't work. Again, I'll tell you one thing, compared 
to a city like Los Angeles, we can say we don't have a gang 
problem. But, you know, we said that 20 years ago, and in 20 
years things have changed. The question is, what can we do to 
not let the city--this area of the country become as 
problematic as, you know, Los Angeles.
    The other thing is, one of the other things that we're 
working on is we're working with the Fairfax law enforcement 
agencies and we're working with an office called Barrios 
Marino, and one of the things that we are discussing 
preliminarily is to try to change the negative image of the law 
enforcement on the part of the Latino community, especially the 
parents, so that there can be a change in the attitude about 
what really--in order to seek assistance from law enforcement 
agents.
    There are many things that we hope to be working on in the 
future, especially with the law enforcement agencies and other 
government agencies. I think that having town meetings, and 
especially teaching parents parenting skills in the evenings, 
and as well as English as a second language. For this community 
that's very important because as the kids become more 
acculturated and assimilated into the American culture, they 
become more alienated from non-English speaking parents, and I 
think that is very important for our community.
    Thank you.
    Chairman Tom Davis. Thank you very much.
    Ms. Guzman.

                 STATEMENT OF ELIZABETH GUZMAN

    Ms. Guzman. Good afternoon, Mr. Chairman, and members of 
the Committee on Government Reform. I'm pleased to be here 
today, and I thank you for allowing me the opportunity to 
address the issue of gang delinquency in our communities.
    My name is Elizabeth Guzman, and I am the assistant area 
executive director of the Boys and Girls Clubs of Greater 
Washington, the Prince William County and Manassas region. In 
my position, I oversee three Boys and Girls Club sites, one 
located in Dale City, another in Dumfries and our newest 
clubhouse located in Manassas.
    The mission of the Boys and Girls Club of Greater 
Washington is to help boys and girls of all backgrounds with an 
emphasis on at-risk youth to build confidence, develop 
character and acquire the skills needed to become productive, 
civic minded and responsible adults.
    My organization embraces five core areas: Sports, arts, 
education, health and life skills, and character and leadership 
development.
    Our clubs in the Prince William County and Manassas region 
serve over 6,700 youth. Our demographics vary based on the 
communities where our clubs are located. Our clubs serve youth 
from all walks of life, including high income two-parent 
families to low-income single-parent families. Our members come 
from all over the Prince William County and Manassas region to 
mutually participate in positive, structured and life-altering 
programs available at all of our locations. Any child between 
the ages of 6 to 18 can attend our clubs and participate in any 
of our programs at a low rate of $20 a year. No child is ever 
turned away who cannot afford the annual dues. The Boys and 
Girls Club always find a way for any child to be a member of 
our clubs.
    While we offer many programs in each of our five core 
areas, we will focus today on the programs that we currently 
offer to help deal with the issue of gang prevention, 
intervention and suppression. What makes the Boys and Girls 
Club so successful and the No. 1 youth-serving agency in the 
world today is not just our low fees and our reputable programs 
but, more importantly, our continued ability to offer services 
that combat the most serious, the most alarming and the most 
destructive issues in the lives of our youth. Most recently, 
unfortunately, that issue has been involvement in delinquency.
    We've always offered the following programs to help delay 
the onset of gang behavior or other acts of delinquency; 
programs like Goals for Graduation, Smart Moves, Job Ready, 
College 101, our Keystone and Church Leadership Clubs, and GED 
programs. And in that effort, we've also established the 
following partnerships. Our newest local board member is a 
juvenile justice judge in Prince William County and he has 
sponsored 100 club memberships to juveniles who appear in his 
courtroom. Twenty thousand free passes to the Boys and Girls 
Club have been sponsored by Prince William County Sheriff 
Glendell Hill and have been provided in each patrol unit to be 
distributed by officers as necessary.
    The city of Manassas will soon be sponsoring 7,700 club 
memberships for each child in the Manassas Public School 
system. And most recently, Prince William County hired Richard 
Buckholtz, director of the GRIT program to work with agencies 
like the Boys and Girls Clubs to continue the Gang Prevention 
Initiative.
    The programs are successful and these partnerships are 
crucial, but the issue of gang delinquency cannot be taken 
lightly. It is not a problem that evolved overnight, and 
therefore should be combated with strategic, positive 
educational programs with proven track records.
    The Boys and Girls Clubs of America offers the groundwork 
for a targeted outreach program that has proven successful in 
many at-risk communities throughout the United States. Since 
1990, with the implementation of the targeted outreach program, 
the Boys and Girls Club of America have steered close to 22,000 
young people away from the dangers of gang delinquency. In two 
simple words, it works.
    In my written statement of testimony I've outlined the 
program in great detail, but I'll give you some highlights of 
this program now. It's developed into four components. 
Component No. 1 is our delinquency prevention component, and it 
pretty much prevents youth ages 6 to 18 from engaging in risky 
behavior that can lead to gang delinquency. This is done 
primarily by involving youth in programs that are of interest 
to them and keeping them involved.
    Component No. 2 is a gang prevention component, very 
similar to our delinquency prevention component, except that 
new youth are recruited to the club through referral services 
in the community that identify these youth as being at risk of 
gang membership.
    Component No. 3, our gang intervention component that 
entails working one on one with gang involved youth using Boys 
and Girls Club programs to facilitate the change. This 
component focuses on youth who are identified gang members.
    And finally, our fourth component, the targeted re-entry 
component is a unique collaboration that allows the Boys and 
Girls Clubs to assist incarcerated youth in transitioning back 
to the community.
    This is the targeted outreach program in a nutshell, and to 
simplify it further, in two simple words once again, it works. 
Some outcome measurements from the targeted outreach program 
include that 55 percent of youth have shown a decrease in 
aggressive behavior, 70 percent of youth now attend the club at 
least twice a week, and 38 percent of youth have improved their 
school performance by one or more letter grades.
    I leave you with this final fact. The Virginia Department 
of Justice in 2005 released that to support one incarcerated 
youth the cost is $88,000. Our annual cost to serve any child 
at the Boys and Girls Club is $1,000. By keeping just 893 at-
risk youth out of jail in 2005 through our targeted outreach 
program, the Boys and Girls Club helped save Virginia 
approximately $56.5 million. Imagine how much we can save in 
Prince William County and Manassas alone when this program is 
in full swing. It works.
    [The prepared statement of Ms. Guzman follows:]
    [GRAPHIC] [TIFF OMITTED] 29710.017
    
    [GRAPHIC] [TIFF OMITTED] 29710.018
    
    [GRAPHIC] [TIFF OMITTED] 29710.019
    
    [GRAPHIC] [TIFF OMITTED] 29710.020
    
    [GRAPHIC] [TIFF OMITTED] 29710.021
    
    [GRAPHIC] [TIFF OMITTED] 29710.022
    
    [GRAPHIC] [TIFF OMITTED] 29710.023
    
    [GRAPHIC] [TIFF OMITTED] 29710.024
    
    [GRAPHIC] [TIFF OMITTED] 29710.025
    
    [GRAPHIC] [TIFF OMITTED] 29710.026
    
    [GRAPHIC] [TIFF OMITTED] 29710.027
    
    [GRAPHIC] [TIFF OMITTED] 29710.028
    
    [GRAPHIC] [TIFF OMITTED] 29710.029
    
    Chairman Tom Davis. Thank you. Thank you very much.
    Mr. Cardona. You are our clean-up speaker. Thank you for 
being here.

                   STATEMENT OF LUIS CARDONA

    Mr. Cardona. Actually, I think I'm the reliever. Good 
morning, Congressmen Tom Davis, Van Hollen, Ruppersberger, 
Wolf, Moran, and my former employer, Congresswoman Norton, and 
to the rest of the participants in this morning's briefing. And 
thank you for having me. It is an honor to serve my community 
as we seek to strengthen our efforts to guide our youth and 
future generations to make safer and healthier decisions in 
life.
    As you may or may not know, I have been working with 
communities locally, nationally and internationally for the 
past 12 years, attempting to help bring peace and an end to 
senseless violence that tragically takes so many of our 
children and youth away from their loved ones and community. I 
sit here before you as the youth violence prevention 
coordinator in the Department of Health and Human Services in 
Montgomery County, MD. Thanks to the leadership of the county 
executive, Doug Duncan, director of health and human services, 
Carolyn Colvin, Police Chief Tom Manger and most importantly 
because the residents and stakeholders of Montgomery County 
have seen a redeeming value in my ability to help others leave 
gang life as well as help to end gang violence. For more than 
12 years of my life I made poor choices which led to several 
arrests, several assaults and a near death experience in which 
I was shot five times; 22 of my friends and associates have 
been murdered, and 30 of my friends have been sent to the 
criminal justice system. I'm the only member of my family to 
graduate from high school, much less graduate from college, as 
well as the member of the neighborhood crew that I used to hang 
with. My very presence here alone symbolizes the possibility of 
success and hope for so many of our youth who are caught up in 
gang life.
    Twelve years ago I met a wise and spiritual man who has 
been the father I never had. His name is Nane Alejandrez from 
the national organization, called Barrios Unidos, that helped 
me make the transition from gangster to peace warrior. This 
journey has been one of redemption, spiritual healing and of 
many difficult challenges in which my life was in danger from 
the same individuals that I hoped to help. Last month I took my 
mother to dinner, and for the first time in my life, she told 
me how proud she was of me, to the extent that I fought back 
the tears, because these were never words that in 39 years I 
had heard at home or from the same person that just said them. 
My crusade of nonviolence has taken on a new role as I am doing 
my part to create for my children what I never had as a child.
    I want to take this opportunity to share Montgomery 
County's public health vision of helping to create a peaceful 
community where youth do not have to see gangs as the only 
option and where youth are valued to the extent that they will 
hopefully never consider joining gangs in order to feel valued. 
And I say public health because after all, gang violence is a 
public health issue, not solely public safety.
    Thanks to Congressman Frank Wolf, the Maryland delegation 
of Senator Barbara Mikulski, Senator Paul Sarbanes, the entire 
committee sitting in front of us this morning, including 
Congressman Al Wynn and the Montgomery County Council as well 
as the many valuable members of the Montgomery County gang task 
force that helped sponsor and put together a strategy where we 
would utilize the three-prong approach of prevention, 
intervention and suppression to address the county's gang 
issue. For example, through the joint county efforts of 
Montgomery and Prince George's Counties, we just opened the 
Crossroads Youth Opportunity Center [CYOC], in the Takoma Park/
Langley Park area, a safe place for youth involved in gangs who 
seek to get out as well as for youth that are at risk for 
joining gangs. Ironically, the term crossroads represents the 
possibility of hope and inspiration for young people at a 
crossroad in their lives. In 2 months of operation, we have 
served 100 youth and families, predominantly Latino and 
African-American, where we have provided mentoring, positive 
youth development, behavioral health services and mental health 
services, case management, retreats, recreational 
opportunities, family building programs, job training and 
placement, group support for incarcerated youth, re-entry case 
management, tattoo removal services, relocation and safety 
planning and legal support and representation. Two African-
American young men recently came into the CYOC and told me that 
they came because a police officer referred them to the center 
and that they themselves were sick and tired of being sick and 
tired and no longer wished to gang bang.
    We have had rival members of several different gangs come 
together under the banner not of their gangs but of the 
fruitful opportunities that the center offers because finally 
someone that looks like them and has been there has reached out 
to them and brought them to the table to help put an end to 
this madness. We have a partnership with our county corrections 
through the leadership of Director Art Wallenstein where those 
inmates who are returning to the community are provided with 
case management before they are released that assesses their 
needs and ensures that they are provided with preparation 
services that will enable them to successfully transition back 
into the community, thereby reducing the possibility of getting 
involved in the criminal justice system again.
    Ladies and gentlemen, imagine a prison system that actually 
rehabilitates its inmates. We have a multidisciplinary team 
that meets on a monthly basis that consists of police, schools, 
local management board and other stakeholders that work to 
provide prevention and early intervention to youth who have not 
been incarcerated or high-level gang members and provide them 
and their families with wraparound services to ensure they do 
not end up in the criminal justice system. This was made 
possible because one of our biggest assets in the gang unit 
reached out and said we have to get to these kids before they 
are locked up. Through our recreation department, we have a 
sports academy, there are three different high schools in 
Montgomery County that allow youth who do not achieve the 
minimum 2.0 GPA but are at risk of gang involvement or members 
of gangs and provide them with the opportunity of positive 
life-affirming recreational activity and academic reinforcement 
in order for them to achieve that 2.0 GPA and hopefully even 
higher. Through our victim services partnership with the police 
department, we identify resources that are needed to sometimes 
relocate youth or families that are in potential danger because 
that youth has left gang life. It is essential for us to 
support youth and families who take this courageous step.
    In addition, we have further strengthened our coordination 
efforts by establishing a youth provider council that consists 
of all the youth service providers in Montgomery County, where 
we have begun a process--excuse me--a process where all youth-
serving organizations use a commonly shared philosophical 
approach to working with gang-involved youth as well as those 
youth that are at risk of joining gangs and their families. 
This was aided by our sponsoring a joint county training in 
December in which 200 participants, where three gang 
coordinators from northern Virginia attended and were provided 
with the tools to effectively work with gang-involved youth and 
helped them to make the transition out of gang life. We have 
now begun to coordinate a solution-based community awareness 
and education effort where we provide the community with not 
just--these are the signs that your kids are in gangs, but what 
do you do next--sound strategies for addressing the gang issue. 
This effort has developed a strong cultural sensitivity that 
addresses the needs of our diverse community in Montgomery 
County. We have also established a youth leadership council 
that consists of former gang members that meet on a monthly 
basis to ensure that our efforts are headed in the right 
direction to better serve our youth. Members of that youth 
leadership council have gone to schools, community meetings and 
even met with our steering committee headed by our police chief 
and director of DHHS. Most importantly, those youth are now 
positive assets in our community, no longer bringing negativity 
to the community. Some of them recently participated in a 
congressional briefing for this subcommittee a couple months 
ago. You may think I am making a big deal of this, and I am. I 
say this because it is the responsibility of the society to 
create a community that nurtures the power of what youth can 
bring to our society in a positive manner, and it is only when 
we fail to do that youth make bad choices. We must get away 
from only acknowledging those things that are negative, but 
focus more on the positive things that our youth do every day. 
However, we must always, always keep educating our community, 
especially youngsters and families of the consequences of gang 
life. And in order to do that, we're going to need to expand 
the initiatives like the Crossroads Youth Opportunity Center 
throughout the county and throughout the region. One member of 
our youth leadership council is now working at an agency doing 
HIV outreach to the same communities where he was once seen 
gang banging. Another youth is working with a large 
construction company called Shapiro and Duncan as the safety 
compliance officer where he is now recruiting other youth 
caught in the crazy life to get sound and meaningful jobs where 
they can begin the process of healing. By the way, both of 
these individuals are in our tattoo removal program. Two 
members of the youth council that were once sworn enemies are 
working along other members of our gang prevention task force 
where they decide on what programs should be funded to address 
the gang issue in the county.
    I will never forget that call 2 weeks ago when these young 
men asked me why they had just received all these proposals and 
what they were supposed to do with them. They could not believe 
that the community valued their leadership so much that they 
wanted--they wanted all the people to help--the community 
wanted them to help choose what we fund for our summer and fall 
activities.
    While we have been successful in Montgomery and Prince 
George's County in reducing MS-related gang crimes from 38 
percent to 24 percent from 2005 to 2006, I want to caution 
policymakers to understand that gangs are not exclusive to only 
Latinos. Our African-American community is also impacted by 
gangs and gang violence. 2005 figures show that 8.5 percent of 
gang crime was attributed to African-American gangs, whereas in 
2006, in the first quarter, 38 percent of it is attributed. We 
must ensure that all our efforts address the needs of the full 
efforts of our communities. In addition, in order to 
effectively address the gang issue, we should separate active 
criminal gang members from inactive gang members who are no 
longer involved in criminal activity. For the past couple of 
years, we have put a high profile to Latino gangs because of 
several high-profile crimes. However, we cannot lose sight of 
our other impacted communities.
    I conclude by thanking all of you for your time and your 
attention to this very important matter and hope we can spread 
this effort out on a regional, national and international level 
because as we all know, gangs do not operate within borders and 
migrate. Hence, we have to provide our youth with what my 
mentor would call, ``a better deal,'' where they will be loved, 
valued and recognized for doing the right things. After all, 
ladies and gentlemen, most often, that is the reason you've 
turned to gangs as an option. And I'd not realized this until 
this past year, but my mentor demonstrated how the values of a 
healthy family and of the gang are so similar but so different 
in the long run. Youth will take advantage of a better deal. We 
just need to offer it to them in order to do it successfully. 
It will require individuals that have been there and done that 
to make that appealing to youth. Remember, when gangs recruit 
children and youth, they are crafty, brainwashing. They are 
using crafty brainwashing strategies to sell the idea of gang 
membership like the next best thing to sliced bread. Ladies and 
gentlemen, we have to do a better job of selling what we bring 
to the table, which is what they really want. At the end, I 
have a picture of what I would call the healing process, which 
are two members of a rival gang who come together and 
acknowledge what has been done by Congressman Van Hollen, and 
had it not been for the Youth Opportunity Center, if they were 
out on the street, they would be trying to kill one another. 
Thank you very much.
    [The prepared statement of Mr. Cardona follows:]
    [GRAPHIC] [TIFF OMITTED] 29710.030
    
    [GRAPHIC] [TIFF OMITTED] 29710.031
    
    [GRAPHIC] [TIFF OMITTED] 29710.032
    
    [GRAPHIC] [TIFF OMITTED] 29710.033
    
    Chairman Tom Davis. Thank you very much.
    And I want to thank everybody for some very, very 
informative and moving testimony.
    Mr. Moran.
    Mr. Moran. Thank you very much, Mr. Chairman, and I 
appreciate your indulgence. I've got to leave to pick up my 
kids. I am all anxious to do that now after this testimony. But 
I just got two questions, and perhaps the next panel might 
address it. There was a show this week on gang violence on 
television, and it focused particularly on children, really 
teenagers, that have been deported back to El Salvador. They 
had been deported without their parents, individually, and in 
fact, there was one heartbreaking scene where a young boy is on 
the telephone, begging his mother to bring him back because 
he's all by himself, and he wants to be with his mother. She 
refuses, and he goes into the hardened life of more gang 
activity, but I understand that's what we are doing to an 
increasing degree, deporting gang members. Perhaps after 
they've been incarcerated for a while, we send them back to 
their country of origin but without the family, and I'm not 
saying that's not an appropriate thing to be doing, 
particularly if they're here undocumented, but I wonder if it 
really makes sense to be separating them from their families, 
perhaps for good, and that's just the first question. The next 
panel might want to address that as well. Unless somebody has--
do you want to say, very quickly, Mr. Cardona, because I don't 
want to take up the other panel's time?
    Mr. Cardona. Well, the LA Times did a very interesting 
article on how deportation policy was actually making this 
problem worse in comparison, unfortunately. And one of my 
concerns would be, what can we do except, respecting another 
country's sovereignty, to support them to develop the same type 
of social service infrastructure we have in this great Nation 
so that these young men don't just go to prison and become more 
and more hardened criminals or they don't become more violent.
    Mr. Moran. I understand that. The most important social 
service structure is the family, them being with their parents. 
We have a policy which deliberately takes them away sometimes 
forever from their parents or at least through their most 
formative years. It's just something that needs to be 
considered. I don't know what the alternative is unless you 
deport the entire family, and that obviously would be an even 
more controversial policy. I want to ask Chairman Connolly, and 
then I've got to leave, but, Gerry, has Fairfax County done any 
kind of correlation--we now have 20, 25 years of experience. Do 
any of your agencies track back the lives of these gang 
members? Once you incarcerate them, do you look back and find 
common factors so that perhaps we can identify them at an early 
age? I know all of you have read a number of articles that say 
that, you know, the kids that come into kindergarten and can't 
read or that graduate from eighth grade without any reading or 
have no supervisory day care in their first 5 years, whatever, 
and come from certain backgrounds is a very, very high 
correlation they are going to be gang members. And so if we 
have that knowledge, then that helps us target our intervention 
resources. Have there been studies in northern Virginia 
perhaps?
    Mr. Connolly. Mr. Moran, it's a good question. And I think 
there are some correlations. You know, a lot of the gang 
members are relatively recent arrivals in the country and in 
the community. As Luis said, you know, it isn't just Hispanics. 
It's also Asian gangs; it's other members of the community as 
well. Now, I think the biggest common denominator is fractured 
family structure and alienation, and, you know, peer pressure 
and peer acceptance are two of the most powerful forces on the 
planet if you're 15 or 16 years old. And to be able to join 
something where you're accepted, even if the price of admission 
is something that obviously is profoundly unacceptable by 
community standards, is a powerful force, and so trying to 
break those patterns of peer influence, create new ones, rival 
ones, create clubs like Boys and Girls Clubs, have 
opportunities for athletic involvement afterschool, have 
mentoring programs that can influence somebody like Luis' 
mentor did and change the course of a life. If you look at the 
gang problem on a spectrum, at the far end of the spectrum is 
law enforcement and suppression. We're pretty good at doing 
that, even in deportation, but we've failed by the time we've 
gotten to that end of the spectrum. The other end of the 
spectrum is prevention and intervention. If we can bump that up 
and be more successful at that, we can avoid a lot of the cost 
at the other end of the spectrum.
    Mr. Moran. Thank you, Gerry.
    Mr. Chairman, thank you very much. Thanks for having this 
hearing, and thanks for your membership, Frank, and our 
colleagues from Maryland, and, Eleanor, they drove for a long 
time. Probably all of them got lost at some point on the way. 
But they got here. And Dutch came 3.5 hours. We're not in 
session today. There are a lot of things they could be doing, 
but it shows their commitment to this issue, and I thank all of 
them.
    Chairman Tom Davis. Thank you. Just one follow on, when Mr. 
Wolf and I were down in El Salvador last year, we met with 
President Saca. We met with some former gang leaders. They have 
some tattoo removal programs down there. You go down there with 
tattoos, you are a leper; you are unemployable. But one of the 
concepts he tossed out is, if the United States would build a 
prison, they would be happy to manage it down there. One of the 
problems we've had here I think is that they are using prisons 
as a recruiting tool. Does anybody have any thoughts on that? 
Mr. Cardona.
    Mr. Cardona. Well, it was interesting because this past 
year they--international development, they did an assessment of 
gang prevention, intervention, suppression strategies 
throughout Central America and Mexico, and part of what they 
were saying was that in corrections in the prison systems, the 
problem is getting worse. However, of all places, the second 
poorest country in Latin America, Nicaragua, they didn't have 
the same problems, and what they discovered was that, in that 
institution or in that system, you actually had a process that 
rehabilitated its inmates. They use culturally sound programs, 
arts, music, things that install the same type of values that 
often gang members seek so that they can feel value. It's the 
same thing that I have seen in Montgomery County in terms of 
what Art Wallenstein is doing. And I encourage all of you to 
come up there and see what they're doing. It's amazing. Because 
those individuals know when they leave, there's something, 
there's a community that's going to nurture them but at the 
same time hold them accountable if they step back in the same 
type of behavior. So again, if we can focus in on that 
component, not just solely building the prison, but ensuring 
that prison system has some type of support system to make sure 
that those individuals get the support they need because, if 
not, if you don't have that in place, it's just going to be 
like a breeding ground to make it worse and for the individuals 
to become more and more violent.
    Chairman Tom Davis. Yes, Mr. Connolly.
    Mr. Connolly. Mr. Davis, I'm local government, but I did 
spend 10 years, as you know, on the Senate Foreign Relations 
Committee, and my job was authorizing the Foreign Assistance 
Program, and I want to echo something Luis just said. I think 
one of the unintended consequences of large deportations, 
trying to get the problem out of here and send them back home, 
is that we are unwittingly creating a very efficient and 
organized criminal class in those societies, and we ought to be 
looking, it seems to me, at some of our Foreign Assistance 
Programs to see if we can't provide much more assistance in 
trying to break those cycles and focus on that in the home 
countries, whether it be prison or other kinds of programs, I 
think there's a real opportunity for the Agency for 
International Development and other aid groups we fund as a 
government to help us there, and it would have a positive 
effect here. As Jim knows, in the program he's citing for 
example, they report some of those individuals who have been 
deported four and five times. So you know, just simply 
deportation alone isn't going to solve the problem.
    Chairman Tom Davis. Thank you.
    Mr. Wolf.
    Mr. Wolf. Thank you, Tom. Just one two-part question, and 
it can be very short to anybody that wants to answer it. Is 
there enough coordination or cooperation in the region? I know, 
in northern Virginia, it's very effective. Federal, State and 
local law enforcement, enforcement schools, but is there enough 
with regard to the District of Columbia and Maryland? Is there 
enough coordination? Because I hear that sometimes you'll 
find--somebody taking place up in Maryland will have a Virginia 
license plate. Second, is there enough involvement in this 
whole effort, particularly in the rehabilitation education of 
the business community? Because the areas that I've seen great 
successes, the buy-in, I know Gerry mentioned Cox--is there 
enough of the business community participating in this effort?
    Mr. Bermingham. I will take a shot at answering both 
sections of those. I would say, on the law enforcement side, my 
understanding is that there is great communication and 
collaboration going on regionally with Maryland and D.C. and 
northern Virginia and that there are regular meetings and 
sharing and exchanging of information. I know that the FBI has 
met with our task force, and they talked about how they could 
improve their communication at the Federal level with data 
bases and names and those types of things. So I know that's 
underway. Could that be improved? I'm sure it could. But I 
think, on the law enforcement side, what I'm hearing from our 
task forces, there is a good communication. I think there is 
more that could be done in the intervention and prevention side 
as far as collaboration. The coordinators--Congressman Wolf, 
it's your money that helped establish or just helped get up and 
running and getting their feet going and one of our next steps 
is to start coordinating more with P.G., Montgomery and D.C.
    Just sitting here listening to Mr. Cardona--and that's why 
I love these things--I have learned two more things that I 
hadn't thought about in what I am doing every day in Fairfax 
County. So that collaboration can be improved and will be 
improved as we continue to mature as a group here in northern 
Virginia.
    I think the business community is a tremendous asset to 
this issue, not just financially but the opportunity to provide 
employment opportunities for kids. And really what we're trying 
to do here in Fairfax is work with our work force investment 
board and establish essentially scholarships for kids to have 
summer jobs in businesses in northern Virginia. An individual 
or an employer could sponsor a child for a summer job, and what 
we'll do for the work force investment board and with the 
services in the country is job coach that child before he gets 
to that job. Prepare them, what you will wear, be on time, just 
the basic things, how you conduct yourself at work, and then 
followup with them afterwards to debrief them and work with 
them to make that next step. That's just one small example of 
what the business community can do. We were preparing and 
continue to work with your Hispanic Advisory Committee to bring 
those businesses together. We really want to make sure though 
that we can tell them what they can do. We need mentors. We 
need money. We need jobs. Don't want to bring them together and 
just say, this is the problem, but give them some tasks. I 
think mentoring, mentoring schools, tutoring, job 
opportunities, those types of things, and financial assistance 
to certain programs is something that the businesses could 
bring to the table and should.
    Mr. Albo. Mr. Chairman, can I just add to that real quick? 
In 2004, we passed a law in Virginia to allow 
multijurisdictional grand juries for gang crimes, and you can 
understand why a person, say, is caught for a gang crime in 
Winchester but say his actual gang crime is say in Fairfax. In 
order for that prosecution, you'd have to have some type of 
evidence that organization in Fairfax is a gang. So the Federal 
Government probably is going to need to step in to create some 
type of coordination for, if a gang member is busted in Fairfax 
County, what if his actual gang is in Maryland? And how does 
the Fairfax County Prosecutor's Office get information or 
investigational information in Maryland to be able to prove the 
elements necessary to prove that this guy is in a gang.
    Mr. Cardona. Excuse me, Congressman Wolf. On the first 
question, I would have to tell you that it has been, indeed, a 
pleasure to work with some of my counterparts in northern 
Virginia. As I mentioned earlier, we held a training in which 
Richard--Bob Welch in Arlington. And I'm trying to remember the 
brother's name in Alexandria. We had several gang coordinators 
there participating. We had begun preliminary conversations, 
and we always are bouncing ideas back and forth off one 
another. What I would like to--and I was hoping we could really 
work on, and I don't know if maybe this is maybe more Federal 
or more State-related stuff, is how can we get COG, the Council 
of Governments to take leadership in terms of how we develop a 
regional philosophical approach to prevention and intervention? 
As the gentleman had just mentioned, we did a great job of 
information sharing and the work from the suppression. It's 
time for us to move forward and see how we can strengthen that 
from the prevention and intervention perspective as well.
    To answer your second question, I mentioned in my testimony 
the construction company Shapiro and Duncan which has the 
philosophy of giving and providing individuals who made 
mistakes with opportunities to work, but they work with them, 
and they support them in that transition as well. And so it is 
going to be essential for us to identify other partners like 
Shapiro and Duncan who do that--who have that type of process 
and recognize the importance of being able to provide 
employment opportunities to this population. Thank you.
    Chairman Tom Davis. Thank you very much.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Let me thank all of you for your testimony, and thank my 
old friend Gerry Connolly for his leadership here in Fairfax 
County. We actually served together back in the day on the 
Senate Foreign Relations Committee. It's good to hear what you 
are doing here in Fairfax County. I do think that we can 
increase the amount of cooperation, collaboration. I think we 
have a good baseline. We're very pleased to have gotten your 
police chief, Police Chief Tom Manger and so he was familiar 
with some of what you've been doing on the Fairfax County----
    Mr. Connolly. Not quite the cooperation.
    Mr. Van Hollen. Exactly. And so Tom Manger has been very 
involved in this, as has Chief High on the Prince George's 
County side, and I do think there is a good amount of 
collaboration between law enforcement. We can always build on 
that, but I also think, as you said, Mr. Birmingham there are 
many things we can learn, expand on the law enforcement 
coordination, but also learn what we're doing on other pieces, 
the intervention piece, the prevention piece, and just to 
generally improve collaboration, and as you said, Mr. Albo, I 
think--we're interested in some of the things we can do at the 
Federal Government level to expand on the lessons that you've 
learned.
    Just to my friend and colleague, Mr. Wolf, I just wonder, 
the Youth Opportunity Center, the Crossroads Youth Opportunity 
Center that Mr. Cardona talked about in his testimony and the 
lives it's already changing is as a result of the--our use of 
the prevention dollars that we received through your efforts. 
As you know, we had--just as you do, we have a three-part 
strategy, prevention, intervention and suppression, and a key 
component of that, of course, is prevention, and that Youth 
Opportunity Center would not be there if it wasn't for the 
funds, and you're already hearing the stories and the results, 
and we need to do more of that. And the Boys and Girls Club is 
a terrific resource in that regard, and I thank you for your 
work. We'd like to expand the number of Boys and Girls Clubs--
we have a number in Montgomery County. We need more in Prince 
George's County and elsewhere in the region. We can work with 
you and other Members to do that.
    Let me ask you, these young people spend most of their 
day--or a good part of their day in school. We heard about the 
middle school problem in particular. Those are the, you know, 
the faculty, the teachers, those are people who are with these 
youth all day long. To what degree is there cooperation between 
the school system and all of you who are trying to, you know, 
fight gang violence. There is sometimes a reluctance on the 
part of the school officials to share information that they've 
learned about a young person in school. On the other hand, 
they're the ones that are there and, if they are paying 
attention, can recognize the early warning signs. And in my 
experience, while there's sort of an ad hoc sharing of 
information, we've never sort of done it in any coordinated 
way. And I'm not talking about trying to get young people in 
trouble. I'm trying to find a way to identify young people who 
need help because Mr. Cardona talked about people that two of 
the youth that recently came to the Crossroads Opportunity 
Center were referred to them by the police. It seems to me the 
school system can also do a better job of helping refer young 
people that they recognize to be at risk to the other after 
school resources that we've got. And if you could just all 
comment to what extent you have a collaborative cooperative 
relationship with schools in a systematic way.
    Mr. Connolly. It's a great question, Mr. Van Hollen. And it 
also overlaps with Mr. Wolf's question about coordination. The 
problem with government at all levels is the stovepipe 
mentality. I've got this mission, and that's not my mission; 
that must be somebody else's. So to break down those stovepipes 
and to try to say actually we're looking at this in a holistic 
way, and we're trying to save kids' lives and channel them in 
productive ways, everybody's got a piece of this action, and 
the schools have the biggest because that's where most of these 
kids are for most of the day. You know, Congressman Davis 
talked about the initiative Sharon Bulova had in the Braddock 
district. We've now done that countywide, and I think one of 
the things you have to do is bring all the stakeholders 
together and talk about this problem and to try to break down 
those barriers. In Fairfax County, for example, we have a 
police officer known as an SRO, special resource officer, in 
every high school and in every middle school. And that isn't 
just a crime prevention. That's as a referee. That's as a 
mentor. That's as a source of information and referral for the 
schools, and they now see that person increasingly as integral 
to their mission in what they're doing. In the past, frankly, 
he or she was over there, and they did whatever they did, but 
they weren't integrated into the faculty and the discussions. 
So we've succeeded at that, and again, trying to have a 
seamless day where we can have after school programs for kids 
is also a critical part of the mission, and the schools have 
been very cooperative in that. And I think a lot of scales have 
fallen from a lot of eyes in terms of the roles of the schools 
in particular as a key component in the gang prevention and 
intervention strategy. So I think we're making a lot of 
headway.
    Mr. Bermingham. Let me just followup on the Fairfax side of 
that. And Chairman Connolly is correct. We've made great 
strides with the school system in working together on this 
issue and our SRO program's one of them. The afterschool 
program and coordination of who's going to run that and operate 
that. And you are looking at issues of principals being in the 
building from 7 a.m., until 7 p.m., if they were going to have 
to run those programs. And what we were able to do was bring 
the collaborative within the county to bring other county 
organizations into those schools and to do some of the 
afterschool program, and now we're going to bring the community 
into the schools to help with those.
    There's two programs that I'd highlight that would give you 
a good indication that the cooperation has improved. The board 
of supervisors just expanded the money for our student 
assistance program and our resiliency and leadership program. 
Which are programs right now just in some targeted schools 
where there are community service boards or social-worker-type 
people, outreach workers in schools identifying these kids; 
they're at risk, not just at risk for gangs, but at risk for 
substance abuse, other criminal activity, other anti-social 
behavior, and working with them on developing their leadership 
skills, working with them in the school setting and outside the 
school setting to bring them--bring them around and give them 
other alternatives. Our assistance programs are working with 
those same kids but also start working with them on a 
multidisciplinary team approach, meaning bringing service 
providers to the table, both county and in the private sector, 
sitting down with the youth and the family and saying, here are 
the problems, how can we address some of these risk issues that 
are in your life? Is it a family problem? Is it your lack of 
attachment to your school? Lack of your attachment to your 
community? And start trying to build some buffers around them 
to help them. So the school system has, in Fairfax, come along 
with us on this issue as well and is working pretty much hand 
in hand with us I'd say.
    Mr. Albo. Congressman, it's not kind of getting--you're at 
questions about cooperation for rehabilitation. We've done a 
bunch of stuff in Virginia that doesn't really have much to do 
with rehabilitation but keeping other kids safe in school. We 
now require that when a juvenile is convicted of a gang-related 
crime, that the principal in his school is notified. We also 
give principals the ability to kick kids out for wearing gang-
related clothing. And then we also have enhanced punishments 
for gang crimes in and around schools, sort of like your drug-
free school zone, only gang-free school zone. So it's not 
really rehabilitation oriented, but in order to make these 
effective, the principals, the resource officers that Mr. 
Connolly has put in every single school have to know who the 
gang guys are.
    Mr. Cardona. This is a reality when we're talking about the 
school system. I mean, after all, at the end of the day, you 
know, how comfortable are parents going to feel if they're made 
aware that there are gangs at their school? It doesn't mean we 
don't do anything about it. I would say, in the time that I've 
been in Montgomery County, I've been impressed in particular 
with the leadership of the superintendent and his deputy 
superintendent, Don Kress, who's on our steering committee, 
because he has definitely reached out to myself, to the police 
department and to other county stakeholders to look at ways of 
how we can address this issue in the schools. One of the 
things--we've been fortunate through our County Council to 
begin on a preliminary basis the establishment--and we can't 
take the credit. We have to give the credit to our neighbors in 
Prince George's County because they had this--it's called a 
high school wellness center, and we're talking about providing 
in that process; it's not just primary health needs, but also 
youth development, social work, the type of things that Bob 
Bermingham was just talking about. And so right now, we're 
looking at how we can focus on that school that's most in need. 
Unfortunately, it's only going to be one school in the county. 
We hope to expand that in the future as resources become 
available, but you know, things like that are necessary to be 
able to support the young people in the schools because it 
doesn't make any sense for there to be conflicts at the start 
of the school and for the young people not to feel that they 
can trust us as adults enough to come to us and ask us the 
resources we have and then take things into their own hands by 
either bringing a weapon to school or by killing somebody or 
doing something else that makes things worse.
    Mr. Lopez. From the prevention end, the Hispanic Committee 
of Virginia, collaborative efforts with Barrios Unidos and 
Greenbriar Training Center has been very successful and has a 
very good relationship with Arlington County, city of Fairfax 
and the city of Falls Church Schools. Our program at the school 
mentoring program, tutoring programs are designed as part of a 
collaborative effort with the teachers and so that we exchange 
information on the report cards and the test scores of our 
students and meet with teachers periodically to see how the 
progress has been changing of those students and their grades 
and in their behavior. So that's part of the evaluation efforts 
of the whole program, whether we really did make a difference, 
and we have performance measures that we have to sort of 
exchange with the teachers quarterly and at the end of every 
year of the program, and it's been working well.
    Ms. Guzman. I just want to add something real quick. The 
Boys and Girls Clubs, we pride ourselves with picking up where 
the schools leave off. Studies show that the most critical 
hours in a child's day are the hours between 3 and 7 when most 
parents are still commuting, and that's where the Manassas 
public school system is looking to sponsor 7,700 club 
memberships for each child in their public school system so 
that the kids have somewhere positive to go after school, 
keeping them involved in positive programs offered at each of 
our facilities. We have an annual meeting every year with 
principals of each school in our districts, and we provide each 
principal with 100 club memberships for children that have 
behavioral problems or children that really need the 
supervision that's provided at the Boys and Girls Clubs and 
structured programs as well.
    Mr. Van Hollen. Thank you.
    Chairman Tom Davis. Thank you very much.
    Dutch, I want to ask just a couple quick questions. Fairfax 
has been one of those proactive communities, but in the 
summertime, when school's not open, at-risk kids, what's 
happening in Fairfax and in Prince William? And the Boys and 
Girls Clubs fill part of that void. But if I'm a potentially 
at-risk youth in Prince William or Fairfax in the middle of 
summer, where am I? What am I doing? And how am I being 
diverted at this point? At least in terms of what everybody's 
working on.
    Mr. Connolly. Thank you, Congressman Davis. We are--we're 
doing a lot. We--our Park Foundation started a special program 
for kids, especially at-risk kids, and we're trying to get--and 
we're working with the business community--we're trying to get 
1,000 kids into that summer program every year, especially at-
risk youth. We, of course, have--I think we have 11 community 
and rec centers throughout the county, each of which has a 
specialized summer program, again, especially targeted to at-
risk youth. In fact, we just opened a new community center in 
Reston, as you know, Tom, and again, it's targeted just the 
right population, and I think it's going to be a great asset in 
what we're trying to do. The police run a summer camp program, 
and I think they have 150 kids, at-risk kids that they're 
specializing in, in particular. In addition, we have actually 
hired at-risk kids who have been absolutely the subject of gang 
recruitment, shall we say, as consultants, and we hire a bevy 
of them to help us evaluate our summer programs and community 
and rec centers and see how we might make it better, and that's 
proved a wildly successful initiative. We just started it last 
year actually based on some testimony from Barrios Unidos. And 
we work with Barrios Unidos and hired these kids, and it's been 
terrific. And those kids who started last year are still 
showing up and stuff, helping us in programming and gang 
prevention and intervention. You know, peer counseling helps a 
lot. There's a lot going on, but to the question of Mr. Wolf's 
question about business partnerships, I think we can do a 
better job of trying to get the business community to provide 
some funding for some of these scholarships so we can expand 
those opportunities.
    Chairman Tom Davis. Yes, Norma. If you want to say 
anything, Ms. Lopez and Ms. Guzman.
    Ms. Lopez. We have--obviously, schools break for the 
summer, and so our afterschool program does not operate during 
the summer months. But we have a summer camp, Alianza Summer 
Camp, where we first train volunteers to serve as counselors, 
and it takes place throughout the entire month of July. And we 
invite kids not only from--from Virginia, northern Virginia, 
but also from the D.C. Metro area, and we do a variety of 
activities. We have been very successful in managing to run a 
summer camp program, and they don't stay overnight. It's a day 
program, 5 days out of the week, where we have limited funding, 
but we've been able to get a lot of things, in-kind assistance 
in order to operate a program. Right now, we would like to have 
for 3 months rather than for just 1 month, and we're working to 
do that. But it's been very successful, and the parents are 
very much involved, and right now, the kids are in summer camp. 
They're having a great time.
    Chairman Tom Davis. OK. Ms. Guzman, I know Prince William 
has been very proactive with the Boys and Girls Clubs. Fairfax 
getting into it. I know Mr. Wolf made money available for Boys 
and Girls Clubs on a larger scale to try to address that 
problem in the summers where schools aren't operating and a lot 
of the other programs aren't up and running.
    Ms. Guzman. The Boys and Girls Clubs during the summer, at 
least in my particular region, we stay open for 12 hours, from 
6 a.m. to 6 p.m., so that we have a place that's open for kids.
    Chairman Tom Davis. How many people do you have 
participating at your different Boys and Girls Clubs, do you 
think, in Prince William?
    Ms. Guzman. Combined at all three of our sites, we have 
approximately 575 to 600 kids involved in the summer program.
    Chairman Tom Davis. Most of them tend to be in the at-risk 
category?
    Ms. Guzman. Yes. There's a mixture. There's at-risk youth 
that are combined with kids who really just need a place to go 
during the summer. So we do stay open during the summer for 
that and the evening as well. We focus primarily on our sports 
program during the evening. So from 6 a.m. to 6 p.m. is our 
summer program, but then from 6 p.m. to 9 p.m. is our sports 
programs so the kids can stay active in sports and recreation. 
We also have our Job Ready Program, which allows youth, 
primarily at-risk youth who are interested in working to be 
what we call junior camp councilors, and they work during the 
summer, and this is all done through our Job Ready Program. In 
addition to that, it's important to note that a high number of 
Boys and Girls Club staff, part time and full time, are club 
alumni. These are staff members who have grown up through the 
club and have acknowledged what the club has done for them and 
how the club has saved their lives in many instances, and so 
these end up becoming the professionals at the Boys and Girls 
Clubs.
    Chairman Tom Davis. Thank you. Mr. Ruppersberger.
    Mr. Ruppersberger. I find this hearing very beneficial, and 
I want to thank the chairman for having this. It's important I 
think to learn from a program that does well. And from what I 
see here today, you are doing very well and the questions I'm 
going to ask basically are questions to find out how you are 
doing to ensure that our jurisdiction is doing the same thing, 
and hopefully, we come together as a team. The trend in our 
area, the Baltimore region, is that we have--you are doing such 
a good job here, but some of these gang members are moving 
around. Now, my first question to Ms. Lopez or Guzman, I think 
to address, and the next panel's going to be more law 
enforcement, but I'm very pleased to see that you're just not 
going to solve this problem by arresting people. You've got to 
get to the youth, and that's extremely important. In my former 
job, the same job that Chairman Davis had and that Gerry 
Connolly have right now, we developed a plan, PAL centers in 
every precinct in our area, which is Police Athletic League. 
Basically it's police officers dealing with the youth in a 
nonconfrontational way and recreation people and that type of 
thing. The question I have, we were having an issue that we had 
the people and the students and youth coming afterschool were 
the ones that usually were doing pretty well anyhow in school 
anyhow. The ones that we had a difficult time reaching were 
those youth, the youth that were on the bubble, that could go 
either way, that were in the street and tough. One of the 
programs that we use which was extremely effective is that we 
started introducing karate, teaching karate, and we were able 
to get in some of that more difficult youth. How are you 
recruiting your youths in your Boys and Girls Clubs, and what 
are you doing to make sure we are getting to the ones we need? 
All youth have issues, but the ones who are on the bubble and 
that could go either way----
    Ms. Guzman. As I mentioned earlier, the Boys and Girls 
Clubs focuses on five core areas, the arts, sports, education, 
health and life skills and character and leadership 
development. We do this because not every child that comes to 
the Boys and Girls Club can pick up a ball and make a basket, 
and not every child that comes to the Boys and Girls Club can 
be involved in an arts class and really be happy with what they 
draw. So we offer a variation of programs at the Boys and Girls 
Clubs, and we open our gymnasiums, and we also offer open 
computer labs to some of the afterschool programs. On Friday 
nights, we stay open an extra 2 hours strictly for teens. 
Through Boys and Girls Clubs' studies, it shows the teens want 
to be separate from the little boys and girls. So now they have 
their own club, and we're open an extra 2 hours just for teens. 
And at each of our three sites, we have approximately anywhere 
between 100 to 120 teens that on Friday nights for 2 hours have 
a club and a place that's strictly for them. They have a game 
room area. They have a theater lounge, and they have a teen 
center, and these teen centers are decorated specifically by 
them. So it's their portion of the club that belongs to them 
only. So these are just some examples.
    Mr. Ruppersberger. You have to make it fun.
    Ms. Guzman. Yes, exactly. We at the Boys and Girls Clubs, 
we--I don't want to sound egotistical, but we really don't have 
a problem recruiting kids.
    Mr. Ruppersberger. The tough kids.
    Ms. Guzman. The tough kids are the easy kids. We really 
don't have a problem.
    Mr. Ruppersberger. I think I would like to maybe get 
together with you and put you together with some of the people 
running the programs in our areas.
    Another question I have--and my daughter lives in 
Harrisonburg. She and her husband live in Harrisonburg, and 
I've had conversations with Frank Wolf and other people and my 
daughter about a lot of the MS-13 seem to be living in that 
area. Now we have--in my jurisdiction, we have Baltimore City, 
but 20 miles out, there's a place called Harford County, 
Edgewood, which is near Aberdeen Army Base, is kind of the 
scenario--I mean, I know Harrisonburg's a lot further, but more 
of a rural area. Do you see and maybe--or Gerry or David or 
whatever--do you see the trend of the urban going to the rural? 
And do you see that a lot of them--maybe the members might not 
even live here that are conducting some activities, but they 
are living in more rural areas and coming to the urban areas?
    Mr. Cardona. Definitely. Again, law enforcement knows this. 
A lot of these individuals migrate. They are very nomadic. And 
I don't want to, you know, branch off into another topic, but 
we have to recognize, too, that the lack of affordable housing 
in these communities where they traditionally live is having an 
impact, too, in terms of how we displace these families. So now 
you have these individuals living in communities where the 
environment is much different. You know, I'm familiar with your 
community, and I know it's much--the population living there 
now, 10 years ago, it wasn't there. So that's--you know, that's 
part of the reality. It is what it is. You now are finding 
these families going to these communities because it's the only 
place where they can find affordable housing. So, 
strategically, in terms of, from a policy perspective, we need 
to keep that in mind when we're talking about affordable 
housing as well. But one of the--the other things that I wanted 
to respond to in terms of what you were talking about, I've 
been doing this work for 12 years, and prior to this, 12 years 
before, I had been heavily involved in gang activity. Through 
those experiences, I have developed key relationships and open 
communication with older active/inactive gang members. They 
know who I am. I know who they are. And so to some extent, 
there's an understanding that they know what I've been trying 
to work and accomplish, and they respect that, you know, and 
one of the things that's important is--and I think what 
everyone's saying here is, it's important that you bring those 
individuals to the table, and you have to create this process, 
but it's not easy. It's not an easy process.
    Mr. Ruppersberger. In that regard, when Congressman Wolf 
and Davis and I were in El Salvador, we went--we were in a 
program. It was a rehabilitation for gang members, very, very 
positive program. And one of the things--a couple things that 
they had in the program is No. 1, the head of that program had 
to go to the actual leadership of the gang and ask for 
permission to get this person off the gang or that person would 
probably be killed. There was a situation where there was a 
mother with two young children that was walking down the 
street, and she had a, I think, M-13 or MS-13 tattoo on her 
face, and when a member of another gang saw her with her 
children, they shot her right there on the spot. This person 
running the program was able to go to the father of those two 
children who was the leader in the gang in jail, by the way, 
and he was able to get permission. Why I raise that issue is 
that we also need to talk about the need of gang members who 
want to get out. And we haven't discussed that here today, but 
what kind of program, if any, and do the gang members in the 
United States have the same problem that you have in El 
Salvador, that if you don't get permission to get out of the 
gang, they're going to go and try to kill you?
    Mr. Cardona. There's always that hazard. There's that risk, 
and that's why it's real easy for us to tell kids, get out of 
gangs, but, again, we have to be very strategic in how are we 
going to compliment that? How are we going to offer them that 
better deal? What can we do to provide safety? That's why I 
talked about earlier, our victims services programs with HHS 
and the police department. It's essential to an extent because 
sometimes there are those dynamics. We've been fortunate in the 
Crossroads Youth Opportunity Center because prior to me coming 
here, I had a connection to an individual who was inactive but 
had over 20 years have been involved in MS and still knew who 
some of these guys were, and he said, look, I'll help you get 
these guys out. You know, but he said, go through me because if 
you go through them directly, they're not going to trust you. 
Even to my extent, even with my background, still, I'm 
establishment; I'm in the system. So there's still some type of 
lack of trust for what I'm trying to bring, but they understand 
that I'm trying to help them, but I make it real clear that 
they're going to be held accountable if they don't do the right 
thing, and they will be arrested and go to jail if they break 
the law. That's--I'm not----
    Mr. Bermingham. Congressman, if I could just add to that, I 
think the clear message that we've got to hammer home in 
Fairfax County is that you can get out. It may be a long 
process. It may be difficult. It may not be simple, but you can 
get out and you can get out alive. We have two gentlemen in 
this room today, one, Mr. Cardona who has done it and is alive 
and is now working as an activist, and Juan Pacheco, who's 
here, who's also an activist, who has done work in this area 
and has made it out. Law enforcement would tell you if that 
edict is true, that once you're in, you're in for life. And let 
me tell you, once you get in, that's what these young kids are 
pounded with: You're here for life, above ground and below 
ground. They believe that because they can see the violence the 
gangs bring to them and to the people that are in.
    But we also want to let them know that they can get out. It 
may not mean that we ever have a kid who can walk up and turn 
his MS-13 card in to the leader. That's not going to happen. It 
is going to take time. He will have to distance himself from 
that gang, and our responsibility is to build in as many 
safeguards as we can to help him or her start backing out, be 
it employment, be it involvement in organizations like Boys and 
Girls Clubs, Barrios Unidos or other organizations that are out 
to support this effort, but it is doable. It can happen. Or I 
would suggest we would have much more violence in this region 
and would have many more statistics of death if in fact that 
was the case.
    Ms. Lopez. I just want to say--I want to answer an earlier 
question that you had. I think that--I'm a public health 
professional, and many researchers, sociologists don't respect 
grassroots approaches to gang violence. Many of the approaches 
that Mr. Cardona has been talking to you about today, and I 
think that in--since I've been in the field for a while, you 
know, maybe we should change our evaluation instruments that 
could really evaluate such that they can evaluate what these 
grassroots efforts are doing. For example, we as a community 
are sometimes very informal, the Latino community. So a lot of 
things that work in a structuralized, institutionalized way 
does not work for our community. So, for example, we hold house 
meetings in the evenings with youth. And where do they go? They 
go to respected leaders of the community who were either former 
gang members or just respected leaders to discuss their fear 
about being approached to be initiated in gangs or wanting to 
get out of a gang. Now, there are no instruments that are 
evaluating the effectiveness of those programs that Mr. Cardona 
has been doing, and I think we need to do that because one of 
the things is we need to know what works, what that activity 
is, and those are very informal methods. Where can--where can a 
kid go at 10 p.m.? I mean, what door can they knock at? If it's 
not going to be a community leader like Mr. Cardona, where they 
can drop in and say, I'm having this problem, and they could 
stay there through midnight. I mean, do you see? And how do you 
evaluate that, but that's not within the 9 to 5 structure, and 
we need to look into those programs, fund those programs and 
develop evaluation instruments that determine whether they were 
effective or not. We keep on saying, as researchers, as 
professionals who went to grad school and studied all these 
methods, that it doesn't work. But nobody really knows.
    Chairman Tom Davis. Thank you.
    Ms. Norton.
    Ms. Norton. I say, amen to that. And frankly, I just don't 
believe government should fund things without studying whether 
it works. It's not so hard to do. I apologize that a number of 
things took me out of the room because I was fascinated by what 
I in fact have heard. So if this question has been answered, I 
will pass right on. It really has to do with whether or not 
gang members outgrow their gangs or graduate to adult criminal 
activity. This is--this is my interest. If you look at the 
pictures that were passed around with the markings and the 
fingers and all, you know, obviously, you are dealing with the 
kinds of things that juveniles do. Moreover, if you study 
immigrant life in America, you won't be very surprised about 
gangs. Even though, for example, Hispanic life has been 
stronger than American life overall, you've got a parent who 
clearly is not a part of the culture. You want to be a part of 
the culture here, may not speak the language. If it is a child, 
the child will learn the language. One of the things that gets 
some of us so upset about the American insulated notion of, I 
want all of y'all to learn English. I want everyone to go to El 
Salvador and start speaking Spanish just like that, the reason, 
for example, that the Voting Rights Act had passed has a 
bilingual ballot on it is that Hispanics do an extraordinary 
job, I could never do what they do, and this is adults that 
come here and they start speaking the language. Well, it's 
harder to write the language. Well, you are dealing with a 
parent who's learning. The child has learned more quickly, and 
you have a kind of updated version of what the Irish and the 
Italians and the Poles went through. They were--go back and 
read what life was like in the streets of New York and Chicago 
with those, you know; they weren't sitting home just studying. 
They were running the streets and often engaged in criminal 
activity. This seems to be some kind of updated version of 
this. And the strong family life that may be right there can't 
compete with the need to become a part of your society in the 
new country. So, all right, so that's what you did. And you 
didn't graduate maybe from high school or whatever, but now you 
are, I don't know, 24 years old. Are these gang members 
destined to become--you said it was one-on-one; they went at 
each other. Are these gang members destined to become 
criminals, or do they outgrow their gang phase and become 
adults of one kind or the other? And talk about something that 
needs to be studied, that ain't so hard to study, by the way.
    Mr. Cardona. In 12 years, ago, doing this work, they can 
outgrow it.
    Ms. Norton. Did you say they can outgrow it?
    Mr. Cardona. They can make that transition.
    Part of our responsibility--and I think Bob touched upon 
this--is once we bring them into that process where they're 
making that transition, how we build their capacity and their 
skills to be able to navigate the system, reintegration into 
school, get a job----
    Ms. Norton. But, Luis, I'm really asking another question. 
Although I was interested in the testimony that you attract 
tough kids, I really wonder if you're attracting tough kids to 
get out of gangs. You know, tough kids may go and play 
basketball.
    My question is really very pointed to whether or not we 
have any information or whether even anecdotally a kid--I'm 
assuming that a--first of all, we know that the rate of high 
school graduation is very low. We know that, with all of your 
extraordinary efforts, that there are going to be many who 
don't graduate from high school. They're just out there. 
They're going to become men.
    I want to know what happens to them. I want to know if they 
then go off into drug activity, into mugging people on the Mall 
or whether there is a kind of maturation process so that they 
go off and work on something, doing whatever they can do. I do 
not know the link between this rather juvenile activity--
although it's become in it's updated version very violent--and 
the crime that we experience in the ordinary course in society.
    Mr. Cardona. Again, Ms. Norton, the reality is if we don't 
engage them in something and don't help them make that 
transition, they're going to end up being that other number 
that contributes to the issue of DMC, that contributes to the 
issue of increased crime in your communities. We have to figure 
out ways of being able to ensure that the options are there.
    Now, what I've seen happen--in particular, we look at 
what's been happening in Central America. These individuals 
have been warehoused just on the premise that they're 
identified as gang members, OK, just on that premise alone. So 
you combine that with individuals who are hardened criminals, 
and there is no separation, then we're going to have a serious 
problem, which is what we're seeing. And to the extent we're 
starting to see increased levels of violence or criminal 
behavior because we are getting those individuals in the PBS, 
they're coming back here more hardened than when they left 
here.
    Mr. Bermingham. Ma'am, I would like the correlation between 
this and typical work that's done in the criminal justice 
system, because while we tend to, in discussions, separate the 
two, really they're one in the same. I mean, we're looking at 
the gangs because of the criminal acts that they're doing.
    I spent 18 years working in the juvenile justice; and we 
worked very, very hard with every child we got to try to get 
them to stop the behaviors they were doing, particularly before 
they got to adulthood. And some of those we were very 
successful, and some of those we had to work during their 
entire juvenile years to keep them alive until they got to 18, 
19 years old and got tired of the behavior, got tired of being 
held accountable and moved on. And frankly, some of them we 
didn't save, despite our efforts.
    Ms. Norton. I'm trying to find out, this one-on-one stuff 
that's going on, they're going at each other, are they out in 
Fairfax and wherever going after the community as well? Are 
they plundering in the community as well?
    Mr. Bermingham. We have not seen that.
    Ms. Norton. It's very important, very important. Because 
if, in fact, what you've got is an insolent phenomenon where 
they're going at one another, these youngsters may outgrow that 
if they are not in fact using the skills--that's what they 
are--to plunder the community. But I understand your concern. 
You want to make sure that this graduation effect does not 
occur.
    I have one more question, Mr. Chairman. Was I in the room 
when girls were discussed? Because I saw some pictures that we 
passed around of girls. And I, of course, have read about girls 
in gangs, these counterparts; and I don't understand the girls. 
So I want to know whether the girls also are violent, whether 
they're in the same gangs with boys and whether the treatment 
of girls is similar. I would appreciate more information on the 
girls. Do they become pregnant? I mean, do they graduate into 
what? I just don't know.
    Chairman Tom Davis. Who wants to take it?
    Mr. Bermingham. I'll be happy to take a shot at it, and 
I'll look at it from a national perspective.
    Girls make up less than about 8 percent of the total gang 
population known nationally. That being said, those numbers are 
growing and they are in an area of concern.
    I was recently meeting with some----
    Ms. Norton. Are they violent as well?
    Mr. Bermingham. They're becoming more violent, yes, ma'am.
    Ms. Norton. What do they do in gangs?
    Mr. Bermingham. They can do anything else that a man can 
do. It's an equal opportunity association. You know, a weapon 
makes as you a tough as anybody next to you, and we're seeing--
--
    Ms. Norton. Are they auxiliaries to the male gangs or are 
they engaged----
    Mr. Bermingham. Initially, they were auxiliaries to the 
gangs, but now you're starting to see a formation of their own. 
And while we do not have an organized female gang that we know 
of in the county, we know of one that tried to start in the 
middle school, and fortunately they were smart or not smart 
enough to videotape it on their phone, the initiation process, 
which was physical, maybe not maybe as physical as you see in 
the male arena, but it was physical, and it was real. Now 
school officials were able to sweep in, get the phone, and 
address all 12 of those young ladies that were involved, and we 
haven't seen anything from it since.
    The scary thing is determining whether girls are involved 
or not. I was talking with an investigator from New York, and 
they had a videotape of a young lady, and they were asking her 
whether she was a gang member, and she said, no, but my 
boyfriend is. Oh, well, do you hang out with him? Yes, all the 
time. Do you hang out with other people? No, just the people he 
hangs out with. Can you break up with him and date someone else 
from the other side of town? No, I can't. Have you ever carried 
drugs or guns or weapons for him? Yes, I have. And the 
investigator turned off the tape and looked at everybody and 
said, is she a gang member or not? She wasn't saying she was, 
but she was acting as she was, and that was a very important 
thing.
    Treatment for female offenders has to be different than 
male offenders. Historically, we have not made a difference in 
the way we treat people in the justice system between male and 
female. Many of our female offenders, gang members or not, as 
you all probably know, have been victims of long-term violence, 
both physical and sexual, and have a lot of different needs 
than men do when they come into the justice system. So, yes, we 
need to be able to have pointed services just to deal with the 
female issues.
    Mr. Connolly. Mrs. Norton, we have a program--and our gang 
coordinator in the school system, who is a former police 
officer, does a great job; and he has a video of an initiation 
of female members in a gang--I don't remember the particular 
gang. It may have been MS-13. It was one of the most shocking 
and degrading things you can possibly imagine. It involves 
sexual degradation, it involves physical abuse, it involves 
buying into something that is very hard to imagine, and it just 
underscores how powerful--now, they may not be the initiation 
for every gang, they may all have different initiations, as Bob 
says, that quality may be coming to gangs. But especially in 
some of the immigrant gangs, the sexual hierarchy is there, and 
women are at the lower end of the ladder, not the higher end. 
And the fact that somebody would subject herself to that says a 
lot about the need for social approval, even in that context.
    Mr. Cardona. I can't speak on behalf of northern Virginia, 
but at least having worked in the District as a street outreach 
worker in the past and working in Montgomery County, it's been 
really amazing to discover that when you look at a lot of the 
conflicts that end up occurring between gangs and crews, 95 
percent of the time it has to do with a young lady.
    One of the interesting things----
    Ms. Norton. Fighting over a girl?
    Mr. Cardona. Over a young lady, yes. And part of what we've 
been doing through our Youth Provider Council, which again is 
the directive of all of our youth services organizations, is 
kind of challenge them to really look at how we can develop and 
work on having programs to target young women so they can 
understand that they don't need to be objectified in this 
manner.
    The thing is, it's really interesting because, when you 
have the opportunity to talk to the young ladies that are 
involved in this conflict, to an extent they sort of thrive off 
the attention, you know, unfortunately. And again, it speaks to 
the fact that, unfortunately, maybe they're not getting a lot 
of attention at home or maybe--they're not really getting the 
type of images of the positive images of what it means to be a 
young Latina or just a young woman in general.
    And it's amazing--I'll never forget this. About 10 years 
ago--I think I told you this story before--one of the young 
ladies that was involved in my work chastised me and told me, 
you're not doing anything for young women; you need to do 
something for young women. I said, fine. I said, you set it up. 
We'll have dinner with them. At the time, it was called Planet 
Hollywood. It's closed down now. It's in downtown. So we had a 
dinner, and there was like 12 girls from a gang in a 
neighborhood in Columbia Heights.
    Before the meeting went any further, even before we got to 
introductions, the leader of the gang said to me, which one of 
us do you want to sleep with? So their whole premise was like, 
you know, our only role can be objectified in this manner; and 
I was coming in trying to say, hey, what can I do to be of 
help.
    So, again, it really identifies a gap and a need in the 
region in terms of what we're going to do to work with these 
young women for them to understand that you don't need to be 
objectified. And also for our young men so they don't objectify 
our young women either. Because it goes both ways. You can't 
just blame definitely the young women.
    On a national level, I've worked with individuals that have 
done that type of work. There's a young lady named Susan Cruz 
out in Los Angeles who works with the juvenile justice system 
out there. She has a program called Girls and Gangs. That's the 
population she works with, and it's been really effective 
working with young women in the situation.
    Chairman Tom Davis. Thank you.
    OK, Ms. Lopez, we're ready to move to the next panel, I 
think, but go ahead.
    Ms. Lopez. I just want to emphasize a point that was made. 
This is why mentoring programs are so important, particularly 
in the Latino community. I mentor a number of young ladies who 
really don't need mentoring. They graduated from graduate 
school in John Hopkins, and they're traveling all over the 
world. But the reason why they came to me is that there were no 
Latino role models, so they needed someone they can relate to.
    I find in our volunteer program mentoring programs you have 
a lot of non-Latinos who are volunteering, but you see a lot 
less Latinos and Latinas volunteering for our programs, and 
that's part of educating our community. Because the Latino 
professionals are out there. The question is, can we bring them 
into these programs? It's just critical to have someone that 
you can relate to both in terms of gender, in terms of culture, 
in terms of everything.
    Chairman Tom Davis. Thank you very much.
    Let me just--the last question. We've spent a lot on 
prevention. Mr. Albo, you've been on the other side. You've 
been a prosecutor. What differentiates Virginia's law? And is 
there any suggestion you can give to other States in terms of 
penalty phase that makes us different?
    Mr. Albo. The Attorney General's Office will be here later, 
and they'll outline everything we've done.
    Like I said before, when we created our Task Force, we 
looked at all the laws in all the States and especially in 
California. We looked at every law that California did, and we 
asked which ones work and which ones don't, and we took the 
ones that worked. And the AG's office on the next panel can 
really give you really good insight on which ones.
    Chairman Tom Davis. Let me thank this panel. We'll take a 
5-minute recess as we prepare for the next panel.
    [Recess.]
    Chairman Tom Davis. We're ready for our second panel, which 
I'm sure will be every bit as informative as our first panel.
    We have Mr. James Spero, the Acting Assistant Special Agent 
in charge of U.S. Immigration and Customs Enforcement [ICE]; 
Mr. Diego Rodriguez, Assistant Special Agent in Charge, 
Criminal Division, Washington Field Office of the FBI; Marla 
Decker--she is accompanied by Mr. James Towey, who is the 
assistant attorney general and director of the Organized Crime 
Unit for the Commonwealth of Virginia. Marla Decker is the 
deputy attorney general for public safety in the Office of the 
Attorney General in Virginia; Chief Touissant Summers, the 
Chair of the Northern Virginia Regional Gang Task Force in the 
city of Herndon, who has been very active on this issue; and 
Captain Milburne, Bill, Lynn, the Commander of the Violent 
Crimes Task Force Unit in the Prince George's County Police 
Force. I want to thank you all for coming.
    It is our policy we swear witnesses in, so if you will just 
rise with me and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. We will start--Mr. Spero, we'll start 
with you; and we'll move right on down the list. We have a 
light here. Your entire testimony is in the record, so if we 
can try to stay to 5 minutes. We've got our questions that 
we've gone over from your written testimony, and we can move 
right along. Thank you very much.

 STATEMENTS OF JAMES SPERO, ACTING ASSISTANT SPECIAL AGENT IN 
 CHARGE, SPECIAL AGENT IN CHARGE OFFICE, WASHINGTON, DC, U.S. 
   IMMIGRATIONS AND CUSTOMS ENFORCEMENT; DIEGO G. RODRIGUEZ, 
     ASSISTANT SPECIAL AGENT IN CHARGE, CRIMINAL DIVISION, 
  WASHINGTON FIELD OFFICE, FEDERAL BUREAU OF INVESTIGATIONS; 
   MARLA DECKER, DEPUTY ATTORNEY GENERAL FOR PUBLIC SAFETY, 
   VIRGINIA OFFICE OF THE ATTORNEY GENERAL; CHIEF TOUISSANT 
   SUMMERS, JR., CHAIR, NORTHERN VIRGINIA REGIONAL GANG TASK 
FORCE, CITY OF HERNDON POLICE DEPARTMENT; AND CAPTAIN MILBURNE 
 (BILL) LYNN, COMMANDER, VIOLENT CRIMES TASK FORCE/GANG UNIT, 
            PRINCE GEORGE'S COUNTY POLICE DEPARTMENT

                    STATEMENT OF JAMES SPERO

    Mr. Spero. Thank you, Mr. Chairman.
    Mr. Chairman and members of the committee, thank you for 
providing me with the opportunity to speak with you today about 
U.S. Immigration and Customs Enforcement's [ICE], efforts to 
combat violent street gangs in the Washington, DC, metropolitan 
area and throughout the United States.
    ICE is the largest investigative agency within the 
Department of Homeland Security. Using our vast enforcement 
authorities, ICE has built a robust enforcement program along 
the borders and within the Interior of the United States. Gang 
members and other criminals should understand that ICE stands 
ready to protect our Nation and its borders. Our presence 
extends throughout the interior of the United States and deters 
illegal immigration by making it clear to those willing to 
violate our borders and immigration laws that such disregard 
for our laws is not acceptable. These efforts underscore ICE's 
homeland security priorities and strengthen respect for our 
laws.
    ICE continues to initiate enforcement programs to identify 
and arrest those who pose a threat to our communities. ICE's 
gang initiative, Operation Community Shield, is one such 
program. Through Operation Community Shield, ICE identifies 
violent transnational gang members that are subject to arrest, 
criminal prosecution and removal from the United States. 
Foreign-born gang members frequently ignore our immigration 
laws and travel to our Nation's interior with the intent of 
joining other gang members to participate in criminal activity.
    In the last decade, the United States has experienced a 
dramatic increase in the number and size of transnational 
street gangs such as Mara Salvatrucha, commonly known as MS-13, 
one of the most violent gangs of its kind. These gangs have 
significant foreign-born membership and are frequently involved 
in human and contraband smuggling, immigration violations and 
other crimes with a nexus to the border. Like many street 
gangs, they also have a propensity toward violence. Their 
members commit such crimes as robbery, extortion, assault, rape 
and murder.
    In 2003, ICE conducted a comprehensive threat assessment on 
street gang activity in the United States. The threat 
assessment identified MS-13 as a gang with a presence across 
the Nation, a significant foreign-born membership and a history 
of violence. Based on this threat assessment, ICE initiated 
Operation Community Shield on February 23, 2005, with the 
priority of targeting MS-13.
    In May 2005, ICE expanded the program to include the 
investigation of all transnational street and prison gangs. ICE 
has partnered with State and local law enforcement and works 
closely with other Federal agencies in support of this 
operation.
    Operation Community Shield has resulted in the arrest of 
over 3,200 gang members. Of those arrested, 70 have been 
identified as leaders of gangs. More than half of those 
arrested have violent criminal histories with arrests and 
convictions for crimes such as robbery, assault, rape and 
murder. Of the 3,200 gang members arrested 1,096 have been 
numbers of members of MS-13. In the Special Agent in Charge, 
Washington, DC, area of responsibility, which includes northern 
Virginia, ICE agents have arrested 233 violent street gang 
members, of which 190 have been identified as MS-13.
    Even before the initiation of Operation Community Shield, 
ICE's Washington, DC, office was actively pursuing 
transnational street gangs, particularly MS-13. An ICE Special 
Agent has been working full time on the Northern Virginia 
Regional Gang Task Force since its formation in June 2003 and 
has contributed significantly to the Task Force's success. Of 
the 1,524 gang members arrested by the Task Force to date, more 
than 20 percent, or 303, have been arrested for criminal and 
administrative immigration violations.
    Allow me to tell you about several significant arrests of 
gang members that were made by the Special Agents from our 
Washington, DC, office.
    In February 2006, ICE Special Agents arrested Edwin Fuentes 
Alvirez, a native and citizen of El Salvador and a high ranking 
member of Mara-R in the District of Columbia for removal 
proceedings. Alvirez has a criminal history that includes 
conviction for second-degree child sexual abuse and arrests for 
assault with a deadly weapon, possession of narcotics with 
intent to distribute, and destruction of property. Based on his 
criminal history, if Alvirez returns to the United States 
illegally, he could be prosecuted for illegal entry after 
deportation and face up to 20 years in prison.
    As this next example illustrates, gang members often get 
significant prison sentences for illegally returning to the 
United States after being deported. In February 2004, ICE 
Special Agents arrested Edwin Armando Ramirez, a native and 
citizen of El Salvador and MS-13 leader in northern Virginia. 
Ramirez was previously deported from the United States after 
being convicted of purchasing/possession for sale of a 
controlled substance and possession of a dangerous weapon. 
Ramirez subsequently returned to the United States and was 
arrested by ICE and was criminally prosecuted for illegal re-
entry after deportation. On September 9, 2004, Ramirez was 
sentenced to 6 years and 5 months incarceration.
    By using ICE's immigration authorities in fighting against 
violent gangs, we can take hundreds of gang members like these 
off the streets and significantly improve community safety.
    With ICE's investigative efforts under Operation Community 
Shield, we are not limited to immigration violations. We have 
combined authorities for enforcing both customs and immigration 
laws, which makes our approach to fighting transnational gangs 
unique and more effective. By combining our immigration 
enforcement authorities with our expertise in financial, 
contraband smuggling and illegal export investigations, we have 
additional tools to hit these criminal gangs where it hurts by 
targeting their organized criminal activity and going after 
their money.
    Also, ICE uses its Immigration and Customs Enforcement 
authorities to investigate and charge members with violations 
of Racketeer Influenced and Corrupt Organizations [RICO], and 
Violent Crime in Aid of Racketeering [VICAR], and similar 
statutes. ICE's ability to arrest virtually every member of a 
transnational gang for some violation of law, even if it is for 
administrative removal proceedings, is a powerful tool that 
immediately disrupts a gang and provides ICE the opportunity to 
gather intelligence and develop sources of information for 
further advanced investigation.
    At ICE, we believe that sharing with other law enforcement 
the intelligence we gather on gang members is one of the most 
important ways to combat transnational gangs like MS-13. We 
create lookouts in the Treasury Enforcement Communication 
System [TECS], on every gang member we identify, encounter or 
arrest. To date, we have created approximately 6,000 of these 
lookouts on suspected or confirmed MS-13 gang members. These 
records are available to all Federal, State and local law 
enforcement agencies, including first responders, when they 
query subjects with the ICE Law Enforcement Support Center 
[LESC], through the National Law Enforcement Telecommunications 
System [NLETS].
    The men and women of ICE, especially those with whom I work 
at Washington, DC, office, are grateful for the chance to serve 
the American people. On their behalf, I thank you and your 
colleagues for your continued support of our on-going 
operations.
    I also want to thank the distinguished members of the 
committee for the opportunity to speak before you today. I look 
forward to answering any questions you may have.
    Chairman Tom Davis. Well, thank you, and thank you for the 
job you are doing.
    [The prepared statement of Mr. Spero follows:]
    [GRAPHIC] [TIFF OMITTED] 29710.034
    
    [GRAPHIC] [TIFF OMITTED] 29710.035
    
    [GRAPHIC] [TIFF OMITTED] 29710.036
    
    [GRAPHIC] [TIFF OMITTED] 29710.037
    
    [GRAPHIC] [TIFF OMITTED] 29710.038
    
    [GRAPHIC] [TIFF OMITTED] 29710.039
    
    [GRAPHIC] [TIFF OMITTED] 29710.040
    
    [GRAPHIC] [TIFF OMITTED] 29710.041
    
    [GRAPHIC] [TIFF OMITTED] 29710.042
    
    Chairman Tom Davis. Mr. Rodriguez.

                STATEMENT OF DIEGO G. RODRIGUEZ

    Mr. Rodriguez. Good afternoon, Chairman Davis, Chairman 
Wolf, Representatives Ruppersberger and Van Hollen and members 
of the committee.
    I appreciate the opportunity to testify before you today 
about the FBI's efforts to combat gangs in the Washington, DC, 
metropolitan area, specifically the Latin America or Hispanic 
gangs such as MS-13.
    Today, gangs are more violent, more organized and more 
widespread than ever before. They pose one of the greatest 
threats to the safety and security of all Americans. The 
Department of Justice estimates there are approximately 30,000 
gangs with 800,000 members impacting 2,500 communities across 
the United States. The innocent people in these communities 
face daily exposure to violence from criminal gangs trafficking 
in drugs and weapons and gangs fighting amongst themselves to 
control or extend their turf and their various criminal 
enterprises.
    MS-13 in particular has gained notoriety for its 
flexibility and willingness to participate in any type of 
criminal activity at any time. Although the level of 
sophistication in criminal activity varies, MS-13 factions in 
every location are traditionally violent. Based upon available 
intelligence obtained through our law enforcement partners, it 
appears that MS-13 in the United States is still a loosely 
structured street gang. However, its threat is based on its 
violence and its potential to grow not only geographically but 
in the organization and sophistication.
    Law enforcement throughout the United States has reported 
MS-13 members are engaged in drug trafficking. MS-13 members 
are also involved in a variety of other types of criminal 
activity, including rape, murder, extortion, auto theft, alien 
smuggling, and robbery.
    In recent years, MS-13 has not only grown in membership and 
presence in our region but also attracts great media attention 
by committing random and, many times, violent acts. Analysis of 
law enforcement and intelligence information has led to the 
following observations of MS-13 activity in our area: To date, 
MS-13 in our region has not developed a level of sophisticated 
criminal activity and organization equal to that in Los 
Angeles, CA and in Central America. Nevertheless, since 2000, a 
pattern of brutal attacks, including the killing of a suspected 
rival gang member by MS-13 members in northern Virginia, 
indicates that MS-13 has become our region's most violent gang.
    Leadership from Los Angeles and El Salvador are believed to 
visit our area to organize cliques. It is currently unclear, 
however, whether their presence is to coordinate criminal 
activity or simply to associate with other MS-13 members in 
this area.
    To date, law enforcement data indicates varying levels of 
organization among cliques in D.C. and northern Virginia. An 
exact number of MS-13 members and cliques for the region is 
difficult to determine, given the mobility of the members, the 
addition of new cliques, deportation and frequent re-entry of 
members and the merger of cliques.
    Although members are aligned with individual cliques, like 
most other gangs, MS-13 members regularly interact, socialize 
and engage in criminal acts with members outside their clique. 
Therefore, law enforcement must continually assess whether the 
dismantlement of a particular clique in fact disrupts its 
members' ability to engage in criminal activity.
    Local neighborhoods, prisons, the Internet and various 
schools have been targeted as recruitment hot spots for MS-13. 
The increasing use of local schools to recruit new members is 
of special concern and could increase violence in schools. 
Cooperation among law enforcement at all levels is the best 
weapon against this threat.
    Since 2004, the FBI Washington Field Office has been a 
participating member of the Northern Virginia Regional Gang 
Task Force. The Regional Task Force is engaged in tactical 
operations and the use of State gang participation statutes in 
an effort to suppress criminal activities associated with 
gangs. The enterprise theory of investigation is also being 
used to identify criminal offenses that may serve as predicate 
acts to support Federal racketeering prosecutions.
    For example, joint investigations with participating 
agencies have resulted in successful Federal prosecutions and 
life sentences of MS-13 gang members for the murder of a 
Federal witness and the murder of a rival gang member.
    We are also working to address this problem at the national 
level. Given the extreme violence exhibited by MS-13 and its 
potential threat, the FBI established the MS-13 National Gang 
Task Force to disrupt and dismantle this gang now, before it 
has the opportunity to become more organized and sophisticated.
    The goals of the MS-13 National Gang Task Force will 
include enabling local, State and Federal as well as 
international law enforcement agencies to easily exchange 
information on MS-13. Recent initiatives include the 
cooperative effort among the U.S. Attorney's Office for the 
Eastern District of Virginia, the Commonwealth Attorney for the 
State of Virginia, local law enforcement agencies and the FBI 
to coordinate a single data base platform to maintain and 
disseminate data regarding MS-13 members and their criminal 
activity.
    Also, a northern Virginia HIDTA Gang Task Force is being 
proposed to coordinate regional and nationwide 
multijurisdictional law enforcement actions, including Federal 
prosecutions. The HIDTA Task Force is proposed to include the 
FBI, ATF, DEA, ICE, and the Arlington County, Fairfax County, 
Prince William County and city of Falls Church Police 
Departments.
    Once again, I appreciate the opportunity to come before you 
today and share the work that the FBI is doing to address the 
problem posed by MS-13 and similar gangs.
    Mr. Chairman and members of the committee, thank you for 
your time and for your continued support of the FBI's efforts 
to combat gangs.
    Chairman Wolf, we are also thankful for the significant 
contributions the House Appropriations Committee has made to 
the efforts of State and Federal agencies to address the gang 
problem in our local communities.
    I am happy to answer any of your questions.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Rodriguez follows:]
    [GRAPHIC] [TIFF OMITTED] 29710.043
    
    [GRAPHIC] [TIFF OMITTED] 29710.044
    
    [GRAPHIC] [TIFF OMITTED] 29710.045
    
    [GRAPHIC] [TIFF OMITTED] 29710.046
    
    [GRAPHIC] [TIFF OMITTED] 29710.047
    
    [GRAPHIC] [TIFF OMITTED] 29710.048
    
    [GRAPHIC] [TIFF OMITTED] 29710.049
    
    [GRAPHIC] [TIFF OMITTED] 29710.050
    
    [GRAPHIC] [TIFF OMITTED] 29710.051
    
    Chairman Tom Davis. Chief Summers, thanks for being with 
us.

           STATEMENT OF CHIEF TOUISSANT SUMMERS, JR.

    Chief Summers. Thank you, Mr. Chairman. It certainly is a 
great opportunity for me to be here today.
    I believe many of the speakers prior to me have basically 
laid out what the issues and the problem is in terms of gangs 
in northern Virginia. What I hope to share with you this 
afternoon is what I feel is a very successful union of services 
and providers that have addressed this issue, and that is the 
Northern Virginia Regional Gang Task Force.
    In the year of 2002, Congressman Wolf convened area law 
enforcement officials and government officials to take a look 
at the gang problem, and from that meeting came the formation 
of the Northern Virginia Regional Gang Task Force. It was 
established in July 2003. Again, we could not have established 
this without the support of Congressman Wolf, who was able to 
obtain some funding to allow us to start this program.
    The Gang Task Force was established as a 
multijurisdictional partnership comprised of local, State, and 
Federal law enforcement agencies to address gang activity in 
northern Virginia through dedicated officers and resources, 
thereby making the region inhospitable to gang activity. Our 
goal was disruption of gang activity, with the idea that gangs 
are not just a law enforcement problem, but gangs needs to be 
solved as a community effort.
    The goals of the Gang Task Force were built upon three 
component strategies: enforcement, prevention and intervention. 
The component strategies to address gang activities 
necessitated a phased-in approach. In other words, we didn't 
try to deal with all this at once, but we phased it in.
    The first year, we dealt with suppression or enforcement, 
and that developed and shared intelligence while using a 
coordinated approach in conducting a tactical response to gang 
activity. The multijurisdictional approach no longer restricts 
police response by boundaries, and involvement of multiple 
agencies provides a common level of law enforcement across the 
region.
    The coordination of our activities included working with 
our Federal partners, FBI, ATF, ICE, U.S. Marshals, our 
Federal, State and local prosecutors, which I think is very 
important, and obviously our local police.
    The Northern Virginia Gang Task Force is directed by 14 
member chiefs, which in itself I think is an achievement, where 
we can get together in a room and decide on what are the major 
issues and how we should attack it. When you add to it our 
Federal law enforcement partners, our State police and our 
prosecutors, from time to time we get together and decide what 
is the best approach for the region. I think there is no secret 
as to--there is no wonder as to why you see now the gangs 
moving from our region and going to regions around us.
    Our second area was prevention, and prevention involved 
education, not only educating our community but educating law 
enforcement, educating prosecutors, educating all the 
stakeholders to exactly what the gang activity is, what the 
gang problem is, what to look for and how we might best go 
about solving it. Such programs as grade programs, after school 
programs, Boys and Girls Club, getting the schools and getting 
private organizations, nonprofits, involved with the police in 
our efforts.
    And our third and final program that we implemented last 
year, June of last year, is intervention. There is some 
overlapping with intervention and prevention, but intervention 
basically deals with getting--what has been said numerous times 
today--getting the young man or woman out of the gangs and 
providing them some alternatives. And to do that, we have 
established a Board of Court Services Directors who basically 
spearheads that. Under the Court Service Directors are what we 
call GRIT teams--of which Mr. Bob Bermingham is one, and he 
spoke to you earlier--to recognize or to identify all the 
resources in the community and hopefully, instead of working 
against each other but working together, to try to solve this 
problem.
    I think the major achievement of the Northern Virginia Gang 
Task Force is just that, the fact that we can get all the 
participants, all the stakeholders together in one room and 
decide on the best course of action, not that we're running the 
gang problem from Fairfax to Alexandria or Arlington, but as a 
region we're addressing the problem to let the gangs know that 
you're not welcome here in northern Virginia.
    I want to thank you for this opportunity, and I want to 
thank you because I firmly believe that hearings like this keep 
this problem before the public. It reminds everyone that this 
problem is a community problem, that we all need to work on it 
together. Thank you.
    Chairman Tom Davis. Well, thank you very much.
    [The prepared statement of Chief Summers follows:]
    [GRAPHIC] [TIFF OMITTED] 29710.052
    
    [GRAPHIC] [TIFF OMITTED] 29710.053
    
    Chairman Tom Davis. Captain Lynn, thanks for being with us.

           STATEMENT OF CAPTAIN MILBURNE (BILL) LYNN

    Mr. Lynn. Good afternoon, sir.
    I want to thank you for the opportunity to be here. I also 
want to apologize for my probably fading voice at times, I've 
been working on a week of trying to lose it.
    Chairman Tom Davis. Make sure we have the mic as close as 
we can.
    Mr. Lynn. In respect of time and in reference to your 
suggestion, I know that my testimony is on record here. I'm 
going to jump a little bit.
    The things that the panel prior to us brought forth are 
extremely important. Being a law enforcement officer for 25 
years, I'm certainly about enforcing the law, putting people in 
jail when they need to be. But after doing this for 3 years 
now, I also understand that we're not going to put handcuffs on 
this problem and make it go away.
    One of the things that we have to do, and the importance of 
this committee and everybody getting together in this room, is 
that we have to keep it in the forefront, as Chief Summers just 
said. We have to keep it out there. We need to have the 
prevention, intervention, education programs out there.
    Certainly the funding and things that have been available--
made available by the committee are certainly needed. The group 
that we have put together in Prince George's County, we took a 
look in 2003 at some problems that we saw coming up, got 
together, had some meetings. We convened a large group of 
individuals from highlighted law enforcement agencies in the 
area, and we asked the question in our conference room 1 day, 
who wants to get together and make it a concerted effort to 
take care of this problem that we're seeing in our region in 
Maryland?
    We were very lucky. We had some people jump on board right 
away. ATF was one of the forerunners with us, are still in the 
program. Since then, we've had the Maryland State Police, we 
have ICE, Maryland Park Police, Howard County, Montgomery 
County. Everybody is joining forces.
    We've been fortunate enough to secure some office space. 
Everybody reports to work at the same spot, which is important 
because we're able to share information on a daily basis. We 
see the same faces. We know what the problems are. We know 
where to direct our efforts.
    The other thing that's very important is that we, as a 
region, whether it's on the Maryland side of the Potomac River 
or Washington, DC, or the Virginia side, is that we work at 
this as a group. Because what's going to happen is, as their 
efforts scale up in Fairfax or in northern Virginia, the 
potential problems or the problems are going to come into 
Washington, DC, or they're going to come into Maryland. So that 
information sharing effort has to be there. We have to know 
what is going to move around. Because these groups of 
individuals are very transient. They do move around.
    One thing that we have to be careful of--I've been to a lot 
of seminars and meetings in committees in this region and on 
the west coast, and I've had the same thing said to me on both 
sides of the country--is that the public comes to a lot of 
meetings, and they're very interested. They know what the 
problem is in their communities. They hear a lot of things, but 
then they step back to see what the product is going to be and 
when it is going to be delivered, and a lot of times they don't 
see it or it's very delayed, and they get very disheartened by 
that.
    So I think we need to be careful of inaction or slow 
action. If we invite the public to our forums and we listen to 
their concerns and their problems and we take them to heart and 
put our programs together, we need to make sure that we deliver 
on the cuff. Again, I've had that same concern brought to my 
attention from both sides of this country.
    Something--and it's a little off this topic, but it's still 
a gang topic--is we need to be careful with the fact of--
certainly we're here for MS-13 today, Hispanic gangs, but we do 
see and we see in Prince George's County an influx of Bloods 
and Crips. It's becoming more popular among middle schoolers 
and junior high, high school, whether you want to call them 
wannabes, but they're getting into that lifestyle, they're 
starting to wear the colors. And a lot of people use the cliche 
that wannabes are gonnabes, and we need to be careful with 
that. Another thing that we can't--as the Task Forces progress, 
we can't ignore that other aspect of gang activity.
    Again, if I can just stress, it's something that we do in 
Prince George's County. We have our Prince George's County Gang 
Unit, and we have the Regional Area Gang Enforcement group 
[RAGE]. We're all about doing the prosecution. We have a 
current RICO case going that's probably going to come to court 
in September of this year.
    But one of the things that everybody who participates in 
this group does is they get into the households of these people 
that we begin to recognize as gang members. They get to know 
the families. They get to know the fathers, the mothers.
    I'm really impressed about the officers that are involved 
in this and their dedication to this. They will give these 
people their private cell phone numbers to call them if there's 
dilemmas going on in their households. Because one of the 
places that we're going to attack gang activity in MS-13 is 
inside of the home. We can put programs out there and we can 
make them available, but parenting and what parents recognize 
is what's going to be I think our first step at getting a hold 
on this problem.
    With that and, again, with respect of time--and I see I'm 
at the red light here--I want to thank everybody for the 
opportunity.
    Chairman Tom Davis. Captain Lynn, thank you, and thank you 
for your efforts.
    [The prepared statement of Mr. Lynn follows:]
    [GRAPHIC] [TIFF OMITTED] 29710.054
    
    [GRAPHIC] [TIFF OMITTED] 29710.055
    
    [GRAPHIC] [TIFF OMITTED] 29710.056
    
    Chairman Tom Davis. Ms. Decker, thank you for being here; 
and we appreciate the Attorney General sending a couple of 
members up to answer questions and share testimony.

                   STATEMENT OF MARLA DECKER

    Ms. Decker. Thank you, Chairman Davis and members of the 
committee. It's my pleasure to be here today.
    I'm Marla Decker, Deputy Attorney General for the Public 
Safety and Enforcement Division of the Office of Attorney 
General Bob McDonnell. He sends his greetings today and his 
encouragement for you to continue the efforts, your fine 
efforts.
    Before I actually begin my testimony, I want to point out 
you've seen a common theme throughout the morning and now into 
the afternoon--and I'm the clean-up speaker, so I'm the last 
one saying it--but I think it must be said, because there is no 
finer Ambassador on the gang issue than Congressman Wolf. And 
you hear it anywhere you go in Virginia. Northern Virginia, of 
course, is very lucky, but he has helped with the Statewide 
initiatives, he's helped with the Federal initiatives and, just 
as Chairman Davis recognized earlier, without the assistance of 
the funding, a lot of these initiatives would be either non-
existent or would be much more difficult to succeed.
    I must say, Virginia has come a long way in over about 3 
years time, certainly with the efforts of all of the public 
officials, but we can't blink, we cannot blink. This is one of 
those things that it's not going to go away in a short time. 
It's going to take a long time.
    As Chief Summers mentioned, you know, suppression is one 
piece, and we have to remain vigilant on the suppression side. 
But as many things have taught us, the drug problem and other 
public safety problems, we have to look at a soup-to-nuts 
approach, a full approach which begins with prevention, 
intervention, suppression and re-entry back into the community.
    In a lot of ways from a State perspective that re-entry 
back in to the community is one of the tougher pieces. Because 
once you put these gang members away in jails or prisons, if 
nothing happens while they're there to change what brought them 
there, they're going to go right back into the community. And 
if we don't work heavily on the prevention end, they're going 
to go right back to the same behavior. And it's going to be 
worse.
    So from the State perspective, while the suppression aspect 
is very, very important, we also look at the OJJBP model, which 
tells you to look at all of those other features, all of those 
other components, and we're doing that. And my entire written 
testimony is a part of the record, so I'm not going to go 
through that piece by piece in the interest, again, of time and 
hitting some of what appears to be this committee's concern.
    I want to mention a couple of suppression things, but I 
also want to mention one of the things the Attorney General's 
Office has been very active in is what we call community 
awareness. Northern Virginia in a lot of respects, in addition 
to being a leader on the gang issue, was also very atypical in 
that the public officials did not engage in denial. We can't 
have denial. Denial and apathy is a breeding ground for gang 
activity. The public officials must recognize that there is a 
gang presence or problem, and the community as a whole must 
embrace that and deal with it.
    So one of the things we're doing across the Commonwealth is 
we're telling communities this is not a one-size-fits-all 
issue, it's not a one-size-fits-all solution. Look at what 
you've got, stop, take a breath, analyze the situation, look at 
the situation, decide what needs to happen. It's not just a law 
enforcement problem. It's everybody's problem. Get the group 
around the table, come up with a plan and then execute the 
plan.
    And that plan should look at resources, it should look at 
the needs, and the needs assessment should be done. There 
should obviously be an important emphasis on the schools and 
after school programs. We need to catch these children before 
the gangs do, because the gangs will. They recruit in schools. 
They recruit after schools when adult supervision is not 
around.
    So you've got to look at--you've got to take a holistic 
approach, and you've got to look at what is going on in your 
community, in your jurisdiction, and then take it from there 
and develop your plan. That is one of the things that we're 
going across the State and we are attempting to achieve is to 
get localities--whether it's the locality or the region or--to 
look at what they've got. Our State laws are now the toughest 
in the Nation, we think, among the toughest in the Nation, and 
they compliment the Federal law as well, and we are 
aggressively proceeding forward to take the worst of the worst 
off the streets and to use our State laws and our Federal laws 
efficiently.
    But the laws--now that Virginia has laws and we have model 
State laws that we think can be mirrored nationally by other 
States, and we would certainly encourage other States to look 
at what we've done, but laws are not the full answer. Laws are 
a major piece, suppression is a major piece, but, as has been 
mimicked throughout the day, we've got to look at the whole 
picture.
    On that, I would thank the committee for your time. I've 
enjoyed being here today, and I'm happy to answer questions.
    And, with the chairman's permission, Mr. James Towey is 
here from our Organized Crime Unit to answer some of the more 
technical questions you might have.
    [The prepared statement of Ms. Decker follows:]
    [GRAPHIC] [TIFF OMITTED] 29710.057
    
    [GRAPHIC] [TIFF OMITTED] 29710.058
    
    [GRAPHIC] [TIFF OMITTED] 29710.059
    
    [GRAPHIC] [TIFF OMITTED] 29710.060
    
    [GRAPHIC] [TIFF OMITTED] 29710.061
    
    Chairman Tom Davis. Mr. Towey, thank you for being with us.
    I'm going to start the questioning off with Mr. Wolf. And I 
would just once again add that, before anybody knew there was a 
gang problem in northern Virginia, Frank Wolf was up there with 
his charts and getting the investigations; and he has used his 
chairmanship of the committee, who funds this, to help northern 
Virginia but even nationally, identifying in advance some of 
the tools that were needed, knowing that we needed to change 
paradigm.
    Mr. Wolf. Thanks, Tom. I thank all of you for your service. 
I appreciate it very much.
    I have two questions. One, how often do the different 
jurisdictions--I know in Virginia it's very good, and I'm sure 
in Maryland, but how often does Maryland and Virginia and the 
District of Columbia, the police chiefs and the different anti-
gang efforts actually meet together?
    Chief Summers. I would venture to say that the police 
chiefs probably meet less often than the line officers meet; 
and I have Lieutenant Haugsdahl, who could probably shed some 
information on that, with the permission of the Chair.
    Mr. Haugsdahl. Officially monthly, sir; and pretty much 
weekly on the telephone.
    Mr. Wolf. So there's pretty good cooperation, coordination 
in Maryland, Virginia and the District?
    Mr. Haugsdahl. Yes, sir.
    Chairman Tom Davis. How about the FBI and the Federal 
agencies, are they coordinating as well?
    Mr. Rodriguez. Yes. From a Federal perspective, we are 
coordinating with our counterparts in Maryland and in D.C. with 
the FBI office and as well as through the other task forces, 
especially at agent level.
    Mr. Wolf. So several times a week do you talk to the 
different jurisdictions, FBI, ATF----
    Mr. Rodriguez. Yes.
    Mr. Wolf. The other question is, how bad of a problem is 
this in the prisons and the jails? I keep hearing stories of 
recruitment problems in State prisons and in the county jails.
    Mr. Towey. Mr. Congressman, I think I might be able to 
answer that.
    One of the best resources that the Commonwealth of Virginia 
has for gang intelligence is the Department of Corrections; and 
the reason for that, of course, is because the Department of 
Corrections does have a very large problem.
    Mr. Wolf. It does have a gang problem?
    Mr. Towey. Absolutely. The Department of Corrections is 
used by gang members not only to continue their gang 
participation activities but also as a recruitment tool. 
Prisons are sometimes referred to as ``gang college.'' That's 
where people that are gang members or people that aren't yet 
gang members go and they learn additional tools to help them 
survive in a criminal way back on the street. And in many 
occasions a certain prison gang, such as La Eme, the Mexican 
Mafia and Nuestra Familia, which are more prevalent on the West 
Coast but are starting to show themselves in the Virginia 
Department of Corrections, those gangs will recruit new members 
and give them what they refer to as marching orders. They will 
instruct the new members when they leave to go out and maybe do 
a hit on the street or do some other criminal activity on the 
street.
    So new members are actually created as a result of the 
Department of Corrections. And they try to minimize that to a 
degree by finding out what inmates are members of what gangs 
when they come in. They have a screening process to try to 
separate them.
    However, on the flip side of it, the fact that the 
Department of Corrections does have a gang problem--and it 
certainly, I guess in theory, should have at least as much of a 
gang problem as exists on the streets because that's where the 
gang members are ending up--the flip side of it is that it's 
actually a great resource for intelligence. There are certain 
investigators with the Department of Corrections that are 
members of the Virginia Gang Investigators Association and that 
are working daily with gang investigators on the street to help 
them solve crimes and even in some cases working with 
prosecutors to give them the evidence that they need to 
prosecute gang members under our gang participation and gang 
recruitment statutes.
    Mr. Wolf. What about county jails?
    Mr. Towey. I don't know hard statistics on county jails, 
but I can only imagine that whatever exists on the street is 
going to exist in the jails, in the regional jails and in the 
prisons. Someone else might be----
    Mr. Wolf. Is there a Maryland----
    Mr. Lynn. Congressman, yes. Much like he says that, when we 
take them off the street, they're going into the jails. And 
they are not curtailing their activities in the jails. We have 
a good working relationship with our county jail, and that's 
when we provide them an inmate that we know has gang 
connections, we give them that information so they have the 
heads up when that person hits their doorstep. We most recently 
had a stabbing that occurred in the jail, and it was clearly 
gang related. It was one member on another member. Even with 
the efforts that the jail takes to control those gang members 
in there, and sometimes keep some of them separated, we also 
find, much like he just said, that information emanates from 
the jail. They continue to put their orders back out to the 
street. They have people come visit them in the jail. We're 
able to see those records of who comes and sees them daily at 
the jail. Their mail is inspected. So it is a good intelligence 
source, but the gang activity continues even after they're put 
on the----
    Mr. Wolf. Is there any effort of rehabilitation with regard 
to the gang activity in prisons?
    Mr. Lynn. Yes, there is. And it's a difficult thing 
because, you have to have somebody to want to take the bite of 
the pie. You can put it in front of them, but if they're not 
interested in that, then even though the efforts are there, and 
I don't want to say futile, but you get the point that I'm 
making. The efforts are there upon--or from the people that 
administrate the jails and the workers that are there, but if 
the participants that are there, the inmates don't want to take 
a bite of that pie, then it is futile at times. And a lot of 
times, these guys that are in those jails are hardened gang 
members.
    Mr. Wolf. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. Thank all of you 
for your testimony here this afternoon. I am just trying to get 
an idea of the extent of cooperation among different members of 
say MS-13 or another international-type gang among different 
regions because we hear a lot about how, for example, there's a 
network of MS-13 members all the way from El Salvador on the 
West Coast and here within this region. And my question is, to 
what extent is that gang structure centralized in any way 
nationally or internationally? Or is it much more I guess like 
independent regional franchises? And because it goes to some 
question about to what extent the intelligence gathering system 
works, in other words if you have sort of an international 
network then, you know, finding out what's going on in El 
Salvador on the West Coast may have a direct bearing on what's 
going on in the Washington region. If it's more sort of local 
efforts with very loose affiliations, something different. So 
do we have more of a sort of international network, central 
network or is this much more of a local franchise type 
operation?
    Mr. Lynn. If I could comment very briefly on that, and I 
think the international aspect of it, Federal partners here are 
going to comment more appropriate than me. I can give you some 
examples we've run into in Prince George's County in Maryland. 
We see influences coming from the West Coast. One of the things 
that our guys on the task force have been very good at doing is 
recruiting informants. So we get that firsthand information 
right from guys that are attending their meetings, and they do 
have routine meetings that you are required to be at. If you're 
not there, then they deal out punishment that you are not 
there. They probably attend their meetings more regularly than 
some of us attend some of the meetings that we're supposed to 
be at.
    Mr. Wolf. Caucus.
    Mr. Van Hollen. We have penalties too now.
    Mr. Lynn. Out of the information coming back from the 
informants we find information is shipped here from the West 
Coast. We find people come here from the West Coast to come 
here to either set up cliques or to direct cliques that are 
here for lack of a better term, are not being successful. We've 
gotten information from informants that have been at meetings 
that people have come here from out of the country. Have come 
here from El Salvador and have come here to direct cliques of 
MS-13 that they are not being violent enough.
    Mr. Van Hollen. All right.
    Mr. Lynn. So they get advisors that are sent here. That 
direction that transient movement of people. In Prince George's 
County, we get people sent here from across the country, from 
the West Coast from New York from New Jersey from down south, 
so with those few examples in there, I think it is quite 
prevalent, and as far as the international connection goes and 
that information's swapping back and forth, I think they can 
handle that.
    Chief Summers. In northern Virginia, we see about the same 
thing. Where I don't know that there's a central command, there 
certainly is an identity there, where if I come from California 
MS-13, certain cliques in northern Virginia I can identify 
with. Same with folks coming from El Salvador.
    Mr. Rodriguez. I agree with Mr. Lynn on what he was just 
saying regarding how we have a lot of gang members, 
specifically from California, come over to northern Virginia, 
looking to try to structure this gang a little bit more the way 
it is in California, because they feel that it's not structured 
here. I think a lot of that is due to a lot of the members of 
MS do work during the day in some type of legit job and get 
together in the evenings to do the illegal-type stuff. 
Internationally, the FBI is working closely with El Salvador 
and also we try to exploit as much of the information that we 
gather when we work closely with the task forces and conduct 
search warrants and arrest warrants, pocket litter leads to a 
lot of intelligence for us. We try to exploit that as much as 
we can and I think have been pretty successful coordinating 
cases across the country.
    Mr. Spero. Congressman Van Hollen, I'd like to also 
reiterate what Captain Summers and Agent Rodriguez was saying. 
When we're out there on a day-to-day basis with the northern 
Virginia task force and the other gang task forces in the 
region, specifically the Fairfax County Gang Unit, we're 
interviewing these gang members on a daily basis as we take 
them into custody. And during our interviews, that's exactly 
what we're finding here in the northern Virginia area, is that 
they--maybe they're under a little bit of pressure because they 
are loosely affiliated under regionalized groups, and not 
necessarily so successful at doing some of the stuff that their 
counterparts on the West Coast have done. And we've heard from 
gang members here in northern Virginia that members from the 
California side or West Coast versions of the MS-13 factions 
would come over here to try to whip them into shape, try to get 
them to be more prosperous successful gangs.
    Chairman Tom Davis. Dutch.
    Mr. Ruppersberger. Again, thank you all for being here. I 
think this hearing has done a lot, but what we always--we talk 
about issues at hearings, but hopefully, we can get to the next 
stage of implementation. When we talk about Maryland, I think 
it's important to know that you have the Washington suburbs and 
then you have the Baltimore suburbs and you know, I think--what 
I am going to ask you a question about is the area I represent 
the Baltimore suburbs. Maybe starting with you, Captain Lynn, 
or anyone.
    Do you have relationships or meetings with the people in 
the Baltimore area, Baltimore City, Baltimore County, Anne 
Arundel, Harford, I would say that the area north, which is 
part of the district I represent called Edgewood, which is near 
Aberdeen, is north of Baltimore City maybe 15 or 20 miles and 
there's a lot of high--there's a lot of level right now of MS-
13 involvement.
    And in fact, the gentleman from Montgomery County just told 
me that the individual he talked about here today, it was a 
source for him, actually really lived and worked in that area, 
and one of the reasons he said that you have movement--not only 
because of what's happening here, but there's a lot of 
affordable housing. So my question, are you working with that 
region, are you sharing information, do we need to do it 
better?
    Mr. Lynn. I would say that we can always do what we're 
doing probably a little bit better. Do we share information 
with that region? Yes. Do we work with them? Have we worked 
with them? Yes. Officers from Anne Arundel County, Baltimore 
County have been in my station. We've assisted them with some 
search warrants and some arrest warrants. We've had some of our 
individuals go up into that region and commit some crimes, a 
very serious assault probably about a month and a half ago, 
that information exchanges and we do work with that region, 
yes.
    Chief Summers. The Northern Virginia Gang Task Force has 
been to Baltimore City and the surrounding areas and provided 
training, and we are in contact with them pretty much weekly, 
daily on certain gang-related issues, yes.
    Mr. Rodriguez. At the Federal level, our FBI Baltimore 
office, we meet regularly with them, and next month, we're 
going to start to try to have a border-type meeting to include 
our State and local partners and discuss the border issues as 
far as going over and back to Virginia.
    Mr. Ruppersberger. Let me ask you this, I'm on the 
Intelligence Committee and I work very closely with the Joint 
Terrorism Task Force, and I think it's probably one of the best 
weapons that we have against terrorism right now in our 
homeland in the United States, Joint Terrorism Task Force is 
really coordinated by the FBI, but you have NSA, CIA, State and 
local and not only do you have the men and women in law 
enforcement on the street, you also have analysts and you have 
the technology to make sure that we have a data base of where 
terrorists are coming from, if there are cells that are here. 
My question--and I think--and really the jurisdiction of 
Congressman Wolf, I mean, if the terrorism task force are doing 
well and we need to go beyond our own jurisdictions, if we're 
really going to deal with this situation because one thing I 
think I've learned here today and information that I have 
before is if you do a good job in Fairfax, they're going to 
move someplace else. Not only because the heat's up, affordable 
housing issues like that. Do you think it would be wise to look 
at the program and the format of the Joint Terrorism Task Force 
and maybe start focussing on that as it relates to--and it's 
got to be done on the Federal level--as it relates to gang 
activity? And there's one component that's very important in 
any type of law enforcement where we're dealing with an issue 
like this, and that's intelligence. We can have a lot of 
aggressive people out in the street, but if we don't get 
intelligence from an international point of view because you 
have a lot coming from El Salvador, and if you don't have that 
intelligence analyzed, and then if you don't have the 
collectors or the police or whatever out in the street getting 
the information, developing informants, you're not going to be 
as effective because really, what happens here might solve or 
help a problem someplace else. Do you have an opinion on the 
Joint Terrorism Task Force program? And would that be a model 
we could use here?
    Mr. Rodriguez. Yes, sir. I do. In fact, prior to coming to 
the Washington field office, I worked in the director of 
intelligence, and understanding intelligence and believe that 
truly is the way to drive a lot of the investigations, 
especially in the terrorist area. We can apply that same 
process to criminal matters. Again, it's--a lot of it is 
knowing your domain, understanding where the crime problem is, 
doing strategic analysis.
    Mr. Ruppersberger. I see my light's going on. I just want 
to say this, I really would like to take this a little further 
maybe about the possibility I'm going to talk with Congressman 
Wolf about it, about that Joint Terrorism Task Force component, 
which would mean new resources as it relates to gang activity. 
It's kind of the same thing that happened in New York when the 
Mafia was really big, taken down.
    Mr. Rodriguez. Absolutely. We need to apply all the 
analytical resources. Again, through strategic assessments, 
we'll be able to connect the dots instead of reacting to them, 
I think, a lot better which is, I think, what the JTTFs are 
doing now in preventing and deterring the terrorist acts, State 
and national intelligence, and letting that drive the 
investigation.
    Mr. Wolf. If the gentleman would yield, how broad are they? 
What is the broadest jurisdiction of the Joint Terrorism Task 
Force?
    Mr. Ruppersberger. It's really coordinated by the FBI.
    Mr. Wolf. How far did they go? What's the broadest? Is it 
just the region, like Baltimore?
    Mr. Ruppersberger. You usually have one in every urban 
area, but it expands throughout. So even though you have one in 
Maryland, it focuses on both Baltimore and D.C., but what's 
unique about it, you also have a tie-in, you have someone from 
the CIA, NSA, they're actually in that task force that are 
getting international information that needs to be analyzed.
    Mr. Wolf. So you are talking about a separate one that 
would just deal with the issue of all gangs.
    Mr. Ruppersberger. I would say--yeah, on the priority of 
gang activity because----
    Mr. Wolf. Right. But are you including bringing it into the 
existing ones that we have? Or having a separate one dealing 
just with the gang issue?
    Mr. Ruppersberger. Well, it depends. You have a role model 
with the Joint Terrorism Task Force--that is a good example, 
the FBI. The Joint Terrorism Task Force is that combination of 
Federal, State and local. And as a former prosecutor, you get, 
as you know, you get a lot from the street. You give me a 
street cop or somebody who's out there all the time, you get 
information. OK, this is like a strike force situation, but 
with analysts and information, but you also have the FBI that's 
starting a new program that's dealing in intelligence, which is 
different from the profile. And they're kind of another group.
    What I'm saying is that we have these joint terrorism task 
forces, in my opinion, and in the opinion of some other people 
that do a lot of work in this area, are probably the most 
effective tool in fighting terrorism in our area, cells and 
whatever. And why reinvent the wheel when we can probably do 
the same thing that they're doing since the FBI coordinates it. 
State and local, you can pull people from different areas, and 
you have this task force and it also gets you information from 
El Salvador, from there. You have CIA components maybe in El 
Salvador that will feed information. You just get a data base 
and then you react to it as it comes to your area. As the 
street people are focussing in getting informants and people 
that can help in that regard. I think we need to talk about it.
    Chairman Tom Davis. Thank you.
    Mr. Ruppersberger. Maybe we can use the Washington/
Baltimore area based on this hearing today as a pilot program.
    Chairman Tom Davis. Thank you again. Mr. Rodriguez.
    Mr. Rodriguez. Currently right now, the National Gang Task 
Force and National Gang Intelligence Center is doing similar 
things to what you were saying, sir, and trying to take that 
intelligence, incorporating it into one data base that can be 
shared across the country as well as with State and locals.
    Chairman Tom Davis. Thank you. I have a couple quick 
questions. Mr. Spero, first of all, is there any al Qaeda 
connection here? Is al Qaeda or any of these groups working 
with any gangs or trying to infiltrate them?
    Mr. Spero. We have heard anecdotal evidence that al Qaeda 
could or MS-13 could be a potential link or have potential 
links to al Qaeda or be a potential weakness, certainly in the 
northern Virginia area, we have not had any information to 
prove that there's been any----
    Chairman Tom Davis. But nationally it's a concern?
    Mr. Spero. Nationally, it is a concern, sir.
    Chairman Tom Davis. You mentioned the 200--you mentioned 
the 233 violent street gang members who were arrested in the 
D.C. area, of which 19 were MS-13?
    Mr. Spero. Yes.
    Chairman Tom Davis. What happened with these gang members? 
And did you work with the Northern Virginia Regional Task Force 
and other local law enforcements to make those arrests?
    Mr. Spero. Absolutely we did. Some of those arrests were 
made with this particular--the Northern Virginia Gang Task 
Force, in which we have a full-time member who is essentially--
he works on a daily basis with them, goes out, he identifies 
targets, the highest priority is the violent members of the 
gangs with criminal histories and gang leadership. We also have 
an agent assigned to the northern Virginia gang unit. He is 
doing the same thing with that unit as well.
    We have an agent assigned to the District of Columbia to 
work with the Washington, DC, Metropolitan P.D.
    Chairman Tom Davis. If they got arrested, what happened to 
them? Did they all get convicted or is it still in the process 
or----
    Mr. Spero. When we encounter these--these gang members, 
what--we look at all different tools that are available to us 
from ICE's standpoint, whether it be a criminal arrest, and we 
get tremendous participation and support and cooperation from 
the U.S. Attorney's office and the District of Columbia as well 
as the eastern district of Virginia, in prosecuting these gang 
members. And we also take them into custody----
    Chairman Tom Davis. So a lot of these you are--basically 
you are still prosecuting?
    Mr. Spero. Yes. Some prosecutions are ongoing. Some have 
been--if we don't have the ability to charge them criminally 
with a criminal prosecution, they would be taken into 
administrative custody, and in that case, they would be served 
with a notice of----
    Chairman Tom Davis. I gather you have an ICE issue with 
some of the many anyway regardless of crime. Is that correct?
    Mr. Spero. Yes.
    Chairman Tom Davis. Not with all. Some of them are 
citizens.
    Mr. Spero. Many of the foreign-born gangs, especially MS-13 
in this area are in the United States illegally. They are 
subject to removal proceedings. They also may be subject to----
    Chairman Tom Davis. If you can get an identified gang 
member, you will--at that point thoroughly enforce immigration 
laws. Is that correct?
    Mr. Spero. Yes, Mr. Chairman.
    Chairman Tom Davis. OK. What percent were repeat offenders 
of this? Any idea of the 233?
    Mr. Spero. I don't have an exact percentage. We do see some 
repeat offenders when we are talking about re-entry after 
deportation and when we do locate those. The Northern Virginia 
Gang Task Force has a good gang data base, as does the northern 
Virginia--the Fairfax County Gang Task Force. And we update 
that data base as we take these people--the MS-13 gang members 
into custody, and when they--if they do come back, they're 
already in our gang data base, and we do arrest them and 
prosecute them for re-entry after deportation.
    Chairman Tom Davis. Let me just ask a minute about GangNet 
at this point. How utilized is that or are we looking for a way 
to streamline so you have a national reference? Can you 
describe how effective that--I don't know, Captain or Chief, if 
we've used that, if we've used that and coordinated with that, 
but that's kind of a nationwide Yellow Pages, isn't it, for 
people who are suspected?
    Mr. Spero. Yes. We're also looking at other gang data 
bases, including GangNet. We are--we share information. We 
share information with the State and locals and our other 
Federal partners. And what we--from ICE's perspective, have to 
add to that in addition to our intelligence on the gang members 
themselves is that their immigration status and the biometrical 
data.
    Chairman Tom Davis. Go ahead.
    Chief Summers. Mr. Chairman, I still believe the 
information across the country is pretty much fragmented, where 
northern Virginia has their data base, and maybe Richmond has 
theirs, California has theirs.
    Chairman Tom Davis. But there's not a lot of sharing back 
and forth. So gang members can move across jurisdictions, come 
in and set up shop, and it may take a while to know who they 
are and what they are doing.
    Mr. Rodriguez. We are looking at GangNet across the country 
through the FBI. We are also exploring other avenues with data 
base sharing currently.
    Mr. Spero. Mr. Chairman, I would just like to clarify that 
we're in the process of coming out with ICE gangs. And in this 
ICE gang system, when we do throw this out, it will be a 
situation where we will be able to more effectively share the 
information back and forth with the Federal partners, State and 
local law enforcement agencies.
    Chairman Tom Davis. OK. Finally, let me just ask Chief 
Summers. If this program in northern Virginia could be 
replicated, what would be the two or three things you would say 
to other jurisdictions across the country that's made this so 
successful?
    Chief Summers. I would say first and foremost to get your 
local law enforcement community together and get the buy-in 
from all of the chief executives as well as the Federal and 
State partners. And then I would say to do it as a phase-in 
approach and not a shotgun approach to try to put in all of the 
phases, the intervention and the prevention. You can't do it 
all at once but you need to phase it in. Kind of like a weed 
and seize, get the baddest off the streets first and let the 
gangs know you mean business and then you can proceed to 
educate and prevent and intervene.
    Chairman Tom Davis. Well, thank you. I think we're happy to 
see the strong partnership with the Federal, State and local 
enforcement. We know territories can exist, and it's heartening 
to see such a strong partnership. Anyone else? Frank, any more 
questions? Let me just thank this panel. It's been a successful 
hearing. We appreciate it. Keep up the good work. Hearing's 
adjourned.
    [Whereupon, at 1:35 p.m., the committee was adjourned.]
    [The prepared statement of Hon. C.A. Dutch Ruppersberger 
follows:]
[GRAPHIC] [TIFF OMITTED] 29710.062

[GRAPHIC] [TIFF OMITTED] 29710.063

[GRAPHIC] [TIFF OMITTED] 29710.064

[GRAPHIC] [TIFF OMITTED] 29710.065

                                 <all>

</pre></body></html>
